<html>
<title> - BUDGET REQUEST ON U.S. STRATEGIC POSTURE AND BUDGET REQUEST FOR STRATEGIC PROGRAMS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 110-120]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2009

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                 STRATEGIC FORCES SUBCOMMITTEE HEARINGS

                                   ON
 
    BUDGET REQUEST ON U.S. STRATEGIC POSTURE AND BUDGET REQUEST FOR 
                           STRATEGIC PROGRAMS

                               __________

                              HEARING HELD

                           FEBRUARY 27, 2008

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
                     U.S. GOVERNMENT PRINTING OFFICE
43-250 PDF                 WASHINGTON DC:  2009
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001



                     STRATEGIC FORCES SUBCOMMITTEE

                      ELLEN O. TAUSCHER, Chairman
JOHN SPRATT, South Carolina          TERRY EVERETT, Alabama
SILVESTRE REYES, Texas               TRENT FRANKS, Arizona
RICK LARSEN, Washington              MAC THORNBERRY, Texas
JIM COOPER, Tennessee                MICHAEL TURNER, Ohio
DAVID LOEBSACK, Iowa                 MIKE ROGERS, Alabama
NIKI TSONGAS, Massachusetts
                 Rudy Barnes, Professional Staff Member
                 Kari Bingen, Professional Staff Member
                      Zach Steacy, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2008

                                                                   Page

Hearing:

Wednesday, February 27, 2008, Fiscal Year 2009 National Defense 
  Authorization Act--Budget Request on U.S. Strategic Posture and 
  Budget Request for Strategic Programs..........................     1

Appendix:

Wednesday, February 27, 2008.....................................    25
                              ----------                              

                      WEDNESDAY, FEBRUARY 27, 2008
FISCAL YEAR 2009 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST ON 
    U.S. STRATEGIC POSTURE AND BUDGET REQUEST FOR STRATEGIC PROGRAMS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Everett, Hon. Terry, a Representative from Alabama, Ranking 
  Member, Strategic Forces Subcommittee..........................     3
Tauscher, Hon. Ellen O., a Representative from California, 
  Chairman, Strategic Forces Subcommittee........................     1

                               WITNESSES

Chilton, Gen. Kevin P., Commander, United States Strategic 
  Command, U.S. Air Force........................................     5
D'Agostino, Thomas P., Administrator, National Nuclear Security 
  Administration, U.S. Department of Energy......................     7
Vickers, Hon. Michael, Assistant Secretary of Defense for Special 
  Operations, Low-Intensity Conflict, and Interdependent 
  Capabilities, U.S. Department of Defense.......................    10

                                APPENDIX

Prepared Statements:

    Chilton, Gen. Kevin P........................................    29
    D'Agostino, Thomas P.........................................    50
    Vickers, Hon. Michael........................................    61

Documents Submitted for the Record:

    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    Mr. Everett..................................................    93
    Mr. Reyes....................................................    96
    Ms. Tauscher.................................................    77
    Mr. Thornbery................................................    96
FISCAL YEAR 2009 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST ON 
    U.S. STRATEGIC POSTURE AND BUDGET REQUEST FOR STRATEGIC PROGRAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                             Strategic Forces Subcommittee,
                      Washington, DC, Wednesday, February 27, 2008.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
room 2118, Rayburn House Office Building, Hon. Ellen Tauscher 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ELLEN O. TAUSCHER, A REPRESENTATIVE 
    FROM CALIFORNIA, CHAIRMAN, STRATEGIC FORCES SUBCOMMITTEE

    Ms. Tauscher. Good afternoon. This hearing of the Strategic 
Forces Subcommittee will come to order.
    The purpose of today's hearing is to examine the United 
States strategic posture and the fiscal year 2009 budget 
request for strategic programs, including nuclear weapons, 
missile defense, intelligence, and military space assets.
    Our committee has jurisdiction over each of these areas, 
tracking closely with the reach of the U.S. Strategic Command, 
or STRATCOM. Therefore, I want to thank General Kevin Chilton, 
commander of STRATCOM, for being here today.
    The committee also charges the National Nuclear Security 
Administration (NNSA) with developing and maintaining the 
nuclear warheads that support our strategic deterrents. For 
that reason, I want to thank Mr. Tom D'Agostino, the Under 
Secretary of Energy for Nuclear Security and Administrator of 
the NNSA, for appearing here today.
    Finally, I want to welcome Assistant Secretary of Defense 
Michael Vickers, whose portfolio--Special Operations, Low-
Intensity Conflict, and Interdependent Capabilities--includes 
establishing the strategic policies that General Chilton is 
charged with executing.
    We asked each of you to be here today because your 
interconnected roles are very important to this committee. I 
believe that, to examine the strategic posture of the United 
States, each of you are needed to help paint a full picture.
    Highlighted through an op-ed authored by former Defense 
Secretary Bill Perry, former Secretaries of State Henry 
Kissinger and George Schultz, and former Senator Sam Nunn, 
there is a growing bipartisan chorus of statesmen and experts 
calling for the U.S. to adopt a policy designed to achieve a 
world free of nuclear weapons.
    In response, this subcommittee has called for a larger 
national discussion of this issue, and the Congress has acted. 
The National Defense Authorization Act (NDAA) establishes a 
bipartisan commission to examine U.S. strategic posture and 
recommend an appropriate policy for the 21st century. The goal 
of the Commission will be to determine the proper balance 
between our nuclear and conventional forces and review the 
roles of our Nation's nonproliferation and Missile Defense 
Program.
    I hope that each of you here today can assure the 
subcommittee that the Administration will fully support this 
bipartisan Commission.
    We would also like your input on what key questions the 
Commission should consider. What do you think has changed in 
our security environment since the last Nuclear Posture Review, 
NPR, that should be explored? And how has the concept of 
strategic deterrence shifted since the end of the Cold War?
    Since we have both the head of STRATCOM and the NNSA with 
us, I would ask that both parties give us a sense of how the 
Administration is looking at Reliable Replacement Warhead (RRW) 
this year as well as Complex Transformation from both a 
programmatic and strategic perspective.
    During the past year, we have had vigorous discussions here 
and abroad over the U.S. proposal to install missile defense 
interceptors in Poland and a radar in the Czech Republic. I 
have traveled to Europe several times over the past year to 
show our European allies how seriously we take our shared 
security interests.
    I have urged the Administration to work through the 
National Atlantic Treaty Organization (NATO) to establish a 
joint U.S.-European missile defense capability. I have urged 
them to ``NATO-ize'' the shield and focus on the threat posed 
by short-and medium-range missiles pointed at Europe and our 
forward-deployed troops.
    Our key concern about missile defense is that the Bush 
Administration's budget request appears to delay the use of a 
very important system for defeating short-and medium-range 
missiles--Terminal High Altitude Area Defense (THAAD). In that 
regard, we are particularly interested in the warfighter's 
perspective on the requirements for these and other systems 
designed to defeat the threat posed by short-and medium-range 
missiles.
    Finally, one year ago, we dealt with an ill-advised and 
dangerous Chinese anti-satellite test (ASAT). Just last week, 
we witnessed the U.S. successfully intercept a failed satellite 
on the verge of reentering the atmosphere and threatening 
populated areas with 1,000 pounds of hydrazine fuel. The 
missile we used to intercept this satellite was part of our 
Aegis Ballistic Missile Defense System (BMD).
    I applaud the open manner in which our military has 
explained and executed this mission. As I see it, our Nation 
took responsibility for eliminating a risk we created 
ourselves.
    General Chilton, you and General Cartwright, as well as 
your whole team, should be commended for a job well done. We 
used a defensive system to defend life, limb, and property. The 
Commanding Officer and the crew of the Lake Erie deserve our 
congratulations and thanks for a very tough job.
    I also see this event as a sign that the U.S. must 
establish more thoughtful international protocols for space-
faring nations. As a Nation critically dependent on space 
assets, such steps are vital to our national security 
interests.
    Today, I would ask you to address the following concerns 
about our space assets: What is our national and military 
policy if our space assets are attacked? Do we have contingency 
plans for closing the intelligence, surveillance, and 
reconnaissance (ISR) gaps that our warfighters would 
experience? And, finally, what are the merits and drawbacks of 
establishing rules for the road in space?
    While we are all acutely aware of the stress six and a half 
years of war have placed on our military, I want to be clear: 
The United States faces pressing strategic challenges beyond 
Afghanistan and Iraq. This subcommittee takes these issues 
seriously, and we intend to advance the discussion and chart 
the right path for the United States.
    Now let me turn to our Ranking Member, Mr. Everett, for any 
comments he might have.
    But, before I do, I just want to take note that, as we kick 
off the fiscal year 2009 authorization cycle, we do so mindful 
that our ranking member will be retiring at the end of the 
year.
    Mr. Everett, you have been a great asset to Congress and to 
the American people, and a credit to your constituents, and to 
this committee and subcommittee. I am grateful to you for your 
good work, and your partnership, and your friendship, and I 
want you and our audience to know that I will be working with 
Chairman Skelton to honor your service in the fiscal year 2009 
National Defense Authorization Act.
    Mr. Everett, the floor is yours.

OPENING STATEMENT OF HON. TERRY EVERETT, A REPRESENTATIVE FROM 
     ALABAMA, RANKING MEMBER, STRATEGIC FORCES SUBCOMMITTEE

    Mr. Everett. Madam Chairman, I do not know how to follow 
that. Thank you very much. You are most kind to make that 
statement, and I do appreciate--very much appreciate--our 
friendship, and I appreciate the work that I am going to 
mention that you have done in this committee. I am going to 
mention it in my opening statement.
    And I also want to join you in recognizing our witnesses 
today for appearing before us.
    We welcome you back, General, in your new position.
    General Chilton. Thank you, sir.
    Mr. Everett. I will say you have my congratulations or 
condolences, whichever you prefer. But, no, we appreciate the 
expertise that you bring to that position.
    And I also want to join the chairman in congratulating our 
witnesses for their efforts in successfully intercepting a 
disabled National Reconnaissance Office (NRO) satellite last 
week. This challenging mission was not one you had envisioned 
or one you had a lot of time to prepare for, yet you did the 
job well and safeguarded the public from potential harm. I 
commend the transparent manner in which your plans and intent 
were communicated to Congress, to the American people, and to 
the international community.
    At a hearing two weeks ago, the Deputy Director of National 
Intelligence, Dr. Fingar, testified on the broad global threat 
and challenges facing the United States. Chief among these 
include the continuing terrorist threat, weapons of mass 
destruction (WMD)-related proliferation, Iran and North Korea's 
WMD and missile programs, increasing cyber-attacks on the U.S. 
networks, Pakistan nuclear security, growing counterspace 
threats, and China People's Liberation Army (PLA) 
modernization. These are the security challenges that will 
continue to shape our strategic forces posture and policy well 
beyond traditional nuclear deterrence.
    I would like to hear from our witnesses their thoughts on 
the change in strategic environment, and its implications for 
our defense policy and capability needs. I remain concerned 
about our space protection posture and how our military 
operates in a space threat environment. Do military contingency 
plans and exercises consider satellite attacks? I am told that 
we have workarounds and alternatives, but I have found that 
when I pull a thread, there is very little detail.
    And perhaps, Madam Chairman, we could have a classified 
briefing on this later on.
    The Chinese ASAT test remains a stark reminder to me of 
what we are up against. The Chinese and others must know that 
attacks against our satellites are simply unacceptable.
    I appreciate your thoughts on policy options, Mr. Vickers, 
to deter others from holding our space assets at risk and how 
we can develop a more robust space architecture.
    We have similar challenges in the cyber domain. I will be 
the first to say this is an even less understood security risk 
than space. Your observations are valued as we examine the 
National Cyber Initiative and get our arms around the cyber 
elements spread across the Federal Government. Last year, 
commanders from U.S. Strategic Command (STRATCOM), U.S. Pacific 
Command (PACOM), and U.S. Forces Korea (USFK) testified to the 
need for more missile defense inventory to keep pace with 
growing missile threats.
    General Chilton, I would like to ask you to discuss the 
warfighters missile defense force structure requirements. I 
would also like your assessment on the missile defense test 
program and when you would have confidence in the operational 
effectiveness of the missile defense system.
    President Bush has met with Prime Minister Topolanek 
earlier today and discussed the importance of missile defense 
and collective security. Polish Prime Minister Tusk visits the 
U.S. next month.
    I understand teams of Czech, Polish, and U.S. negotiators 
have worked incredibly hard to obtain missile defense 
agreements. I want to publicly thank them for their efforts and 
encourage a speedy conclusion.
    I would also publicly like to thank our chairman for the 
efforts that she has made, which have been tremendous, in this 
endeavor. She has done it in a very diplomatic way, and yet 
she, in my estimation, has moved the process forward.
    These efforts reflect a shared commitment to our 
relationships with our collective security. I hope our 
witnesses will expand upon these negotiations.
    I also understand we are making progress in NATO 
integration. There again, I would like to thank the chairman 
for what she has done in that regard.
    I was recently briefed on the joint missile defense 
scenarios being run between MDA and C2BMC System and NATO's 
Prototype Command and Control System. Building upon the 2001 
Nuclear Posture Review, the secretaries of defense, state, and 
energy released a statement last summer on U.S. national 
security and nuclear weapons and stated their intent to provide 
a detailed strategy later this year.
    With the witnesses assembled today, we have an opportunity 
to discuss policy issues associated with strategic deterrence, 
the military's nuclear requirements, their assessment of the 
current nuclear stockpile and Reliable Replacement Warhead 
Program, and the viability, long-term risk, and force structure 
implications of the future with life-extension weapons and RRW.
    Before I close, I would like to acknowledge NNSA and the 
Administration, and credit them with implementing the largest 
nuclear stockpile reduction since the end of the Cold War. 
NNSA's dismantlement rates are at an all-time high. The Moscow 
Treaty deductions for operational deployed strategic warheads 
are on track.
    The stockpile reduction directed by the President in 2004 
to cut the 2001 nuclear weapons stockpile by 50 percent by 2012 
has already been accomplished, and an additional 15 percent 
reduction was announced last September, and the 
nonproliferation program has expanded to reflect the evolving 
proliferation threats.
    Again, I want to pay tribute to our chairman. Much of what 
we have done in this committee has been through her leadership, 
and I am really proud to be associated with this committee 
under her leadership.
    Thank you very much.
    Ms. Tauscher. Thank you very much, Mr. Everett.
    I will note for our witnesses that we have received your 
prepared statements and are very appreciative that you have 
provided them to the committee ahead of this afternoon's 
hearing, and if you would like to summarize your prepared 
testimony, we will be able to move more quickly to questions.
    General Chilton, we will start with you. The floor is 
yours.

 STATEMENT OF GEN. KEVIN P. CHILTON, COMMANDER, UNITED STATES 
               STRATEGIC COMMAND, U.S. AIR FORCE

    General Chilton. All right. Thank you.
    Thank you, Madam Chairman and Representative Everett both, 
for your leadership, and members of the committee, thank you 
very much for this opportunity to be here and share my thoughts 
with you and answer the questions that you have with regard to 
where we are in STRATCOM and where we are headed.
    I also want to thank not only the members personally, but 
also your staffs for the great support and open dialogue we 
have had between myself and your staffs, and my staff and your 
staffs. I think it is one of the healthiest relationships we 
have, and I am committed to continuing that open dialogue 
between STRATCOM and the members of this committee and their 
staffs.
    And I would be remiss if I did not thank you for your 
support of our men and women in uniform.
    I have been before this committee before in other hats. 
This is my first time as the STRATCOM Commander and as a Joint 
Commander of Army, Navy, Air Force, Marines, and it is a proud 
opportunity that I have.
    So it is congratulations, not condolences, Mr. Everett, and 
I thank you for that.
    To have this job, as the STRATCOM Commander, is both 
humbling, but also incredibly rewarding considering the quality 
of people that I work with, and the dedicated men and women we 
have serving STRATCOM, which not only wear a uniform--we have a 
tremendous number of civil servants in STRATCOM that support 
our operations day in and day out, just as dedicated as our men 
and women in uniform. I have become very proud of them and very 
humbled that I can lead them.
    If I could, I would appreciate if my statement could be 
submitted for the record, ma'am.
    Ms. Tauscher. Without objection.
    General Chilton. Thank you.
    I will just to summarize just at the new commander briefly 
my observations on the command and where I am taking the 
command.
    First of all, I spent the first month immersing myself in 
the command and going out and visiting all my component 
commanders and also taking the advice of Senator Nelson, who in 
my preparations for confirmation hearings, commended that I go 
out and immerse myself also in the nuclear enterprise, and so I 
have been out and visited all of our laboratories in the 
Department of Energy (DOE). I have the Pantex Plant on my 
schedule, as well as a visit to Y-12 yet to come, and so I have 
taken that advice to heart.
    As I look at the missions assigned to STRATCOM, we have a 
lot of missions, a diverse set of missions, but what I found is 
there is a thread that runs through all of our mission areas, 
and that is they are global in nature. So STRATCOM truly has a 
global focus. In fact, it may be better named a global command. 
But that is our focus, and those are our mission areas.
    But with eight mission areas, if all are important, the 
feeling is that nothing is important, if they are all equally 
important. So I had to focus myself on energy, and I have 
looked at these mission areas very closely, and I divided them 
into two major groups.
    One group is where I have forces assigned to STRATCOM, 
which are conducting daily operations, 24-7, in mission areas, 
where I have subordinate commanders who can do planning and who 
can pass my orders on to tactical-level commanders and execute 
things day in and day out. These are the mission areas that 
require 24-7 attention by the command.
    They are mission areas that operate daily across global 
boundaries and are totally agnostic to lines drawn on a map. 
Regional, state boundaries, indeed continents do not matter to 
these mission areas, and these mission areas are strategic 
deterrence, space, and cyberspace.
    And so I have made the effort to increase the staff at the 
headquarters' focus and the command's focus--daily focus--on 
not only executing the missions we are assigned in these areas 
every day, but making sure we are doing it in an integrated 
fashion.
    The other mission areas we have are no less important, but 
in these mission areas, I found we do not have forces assigned 
from the services to conduct operations, and rather than having 
a focus of operating across boundaries, these mission areas 
require STRATCOM to lead in knitting together the seams between 
boundaries in the regional combatant commands. And this would 
be in the areas of integrating missile defense, combating 
weapons of mass destruction, information operations (IO), not 
to include network operations, and ISR.
    I do not own a single ISR platform. I do not own any WMD 
forces to go out and carry out that mission. I do not own IO 
forces that conduct psychological operations or military 
detection, nor do I have my finger on the trigger of our 
Missile Defense Program, but our job is a very important one, 
is to make sure that these global capabilities that have global 
concerns, cross-cutting concerns, are knitted together 
appropriately, and we take that mission set very seriously, 
equally seriously.
    I guess I would close by saying that is the focus I have 
tried to bring. I have also made some adjustments in the 
headquarters to refocus on these areas, to bring the 
integration function up to the headquarters, to reemphasize our 
leadership role and responsibility, particularly in the nuclear 
mission area, and we have made some changes there that I think 
are moving the ball forward for the future.
    And you know what? It is pretty easy when you have the kind 
of people I have working for me to make these kind of changes 
and to move forward.
    Again, I thank you for this opportunity to be with you 
today.
    [The prepared statement of General Chilton can be found in 
the Appendix on page 29.]
    Ms. Tauscher. Thank you, General Chilton.
    Under Secretary D'Agostino, the floor is yours.

  STATEMENT OF THOMAS P. D'AGOSTINO, ADMINISTRATOR, NATIONAL 
   NUCLEAR SECURITY ADMINISTRATION, U.S. DEPARTMENT OF ENERGY

    Mr. D'Agostino. Certainly. Thank you, Madam Chair. I 
appreciate the opportunity to testify here today before the 
committee.
    I also appreciate the time you took this morning, and the 
committee took this morning, with Chairman Skelton to talk to 
Deputy Administrator Will Tobey. He was pleased to be able to 
talk about the programs on the nonproliferation side.
    I would also like to point out we have a few of our future 
leaders, I believe, sitting in the back, as we have done in the 
past, give them an opportunity to see this country at work, and 
so I am always pleased to have them with me.
    Mr. Everett, I appreciate your comments on the changes and 
the improvements we have made in the stockpile, particularly 
our work in dismantlement. We are very proud of that record, 
and we have a lot more work to do, and we plan on continuing to 
focus.
    The work done at the Pantex Plant, of course, is a key part 
of that, as it is at Y-12. So we are going to keep the 
attention on that particular element because it not only helps 
us with dismantlement, but it helps hone our skills that we 
need in order to deliver products to the Defense Department 
(DOD).
    I feel the nuclear weapons complex is at a crossroads. 
Maintaining the status quo and just keeping our complex kind of 
doing what we did last year is not really an option, and I 
think delay and inaction will only increase the costs and 
elevate the risks associated with manufacturing and maintaining 
an aging stockpile.
    Regardless of stockpile transformation plans, and while we 
are shrinking the total size, facilities need to be upgraded, 
and the challenge for us will be to move from an aging nuclear 
weapons complex designed for the Cold War and move that and 
shift that toward a 21st century national security enterprise 
that is integrated, that is cost effective, and that eliminates 
unnecessary redundancy, but also is at the forefront of science 
and technology.
    In addition, our 21st century enterprise will continue to 
leverage the scientific underpinnings of the historic nuclear 
weapons mission to respond to a full range of national security 
challenges that we have and, beyond nuclear weapons 
sustainment, shift those more toward nuclear counterterrorism 
and nuclear nonproliferation activities. And, as an example, we 
provide technical support to the Defense Department and the 
Federal Bureau of Investigations (FBI) and emergency-render 
safe and post-event nuclear technical forensics activities, and 
a lot more needs to be done in that area, and we are going to 
be looking to shift more toward that area.
    Infrastructure improvements are a major part of the Complex 
Transformation plan that we have, and we have made important 
progress, but we have a lot more to do. Some major facilities 
that we have date back to World War II and cannot readily meet 
today's safety and security requirements. Let me give you just 
two quick examples, if I could.
    A sufficient capability to work with plutonium is an 
essential part of a national security enterprise and is 
required for as long as we retain a nuclear deterrent, and most 
likely even longer. Currently, we have a very small production 
capacity at Los Alamos, about 10 pits per year, at our TA-55 
area. Our building at Los Alamos, the Chemistry and Metallurgy 
Research Facility, is well over 50 years old and is 
insufficient to support the national security requirements for 
the stockpile and for future national security mission areas.
    So, whether we continue on our existing path or move toward 
a replacement modern warhead-type stockpile, we still need the 
capacity to produce about 50 to 80 pits per year, which is less 
than one-tenth of our Cold War level, as well as the ability to 
carry out Pit Surveillance, which is an essential part of 
maintaining our stockpile.
    The second example is uranium component production. Every 
warhead, whether it is refurbished or replaced, will need 
uranium components. Our current facilities date back to the 
Manhattan Project. Securing these facilities from terrorist 
threats in a post-9/11 environment is increasingly difficult 
and increasingly costly, particularly, also, operating them 
with modern safety requirements and standards that we expect.
    So the construction of our highly enriched uranium 
materials facility at Y-12 is going to allow us to consolidate 
our uranium storage with a significantly reduced security 
footprint and more work will be needed in that area.
    I would like to turn briefly to the stockpile. The 
stockpile has not required nuclear testing to date, but keeping 
this stockpile healthy has become an increasingly difficult 
challenge. Periodically, we identify problems with the warheads 
that in the past would have been resolved with nuclear tests. 
Our Stockpile Stewardship Program (SSP) has worked well so far 
to help us avoid that prospect.
    And the considered judgment of the National Weapons 
Laboratory directors, however, is that maintaining 
certification of finely-tuned designs of an aging Cold War 
stockpile through life-extension programs (LEPs) without 
underground testing involves increasing risk. An alternative 
path could be a stockpile based on replacement warheads that, 
unlike Cold War warheads, would be designed for certification 
without additional testing.
    Indeed, our experts from our laboratories--again, their 
best technical judgment today is that it will be less likely 
that we would need to conduct nuclear testing to maintain 
safety, security, and reliability into the future if we pursue 
this modern replacement path, than if we continued on working 
on our legacy warheads.
    In December, I provided Congress classified information 
giving further details on these matters, and I am aware also 
that we had our lab directors talk to the committee a few weeks 
back to talk about these matters.
    We are often asked why do we believe it is so important to 
study reliable replacement concepts now, and there are a number 
of reasons. First, the study will provide critical information 
to ensure that the next Administration, as well as the 
bipartisan Commission that this committee has established, can 
complete the timely review of the nuclear posture. Providing 
information to the committee, I think, is very important for 
that committee to understand all the implications of modern 
replacement concepts, that those things can provide.
    Second, we have concerns about our ability under life-
extension only strategy to ensure the long-term safety and 
reliability of today's stockpile, absent testing, and what that 
might mean for our stockpile makeup.
    Third, we have warheads that have 1960s to 1980s safety, 
security, and antiterrorism features. It does not mean that 
these warheads are not currently safe and secure, but we can 
and should do better, and I believe that these reliable 
replacement concepts provide opportunities to incorporate the 
latest technological advances for precluding unauthorized use 
in a post-9/11 environment. It would be very difficult to back 
fit these into existing Cold War warheads.
    Fourth, nuclear skills are absolutely vital to the nation, 
not just for sustaining our deterrent, but also in such areas 
as nuclear forensics, nuclear counterterrorism, and in 
solutions for the intelligence community. In a few years, 
nearly all of the older generation will have retired.
    Finally, the Department of Energy continues to believe that 
these concepts make sense and are worth studying due to its 
enabling features for the future stockpile.
    The foundation for future reductions, in my view, are the 
ability to transform the nuclear weapons complex into a 
responsive infrastructure and responsive enterprise; ongoing 
efforts to understand the challenges to the stockpile and 
modern means of addressing these challenges; and efforts 
between future Administrations and Congress to restore a 
consensus on the future nuclear deterrent force posture and the 
resulting stockpile that results from all this.
    I recognize that the completion of the Reliable Replacement 
Study was not funded in the 2008 Omnibus Appropriations Act, in 
part due to concerns that the Administration had not fully 
communicated its policies which guide nuclear forces posture 
and programs.
    The Administration will shortly provide to Congress a 
second paper to accompany its white paper on nuclear policy 
that was transmitted last year. This second paper will outline 
in detail the strategy which guides our programs, including the 
size of the stockpile.
    Our goal is to complete the study as a means to assure that 
the next Administration, as mandated by Congress, can complete 
its nuclear policy.
    Thank you very much for the time to make these statements, 
and I look forward to your questions.
    [The prepared statement of Mr. D'Agostino can be found in 
the Appendix on page 50.]
    Ms. Tauscher. Thank you, Under Secretary.
    Assistant Secretary Vickers, welcome to the subcommittee.
    Secretary Vickers. Thank you very much.
    Ms. Tauscher. Thank you again for being here. The floor is 
yours.

   STATEMENT OF HON. MICHAEL VICKERS, ASSISTANT SECRETARY OF 
  DEFENSE FOR SPECIAL OPERATIONS, LOW-INTENSITY CONFLICT, AND 
    INTERDEPENDENT CAPABILITIES, U.S. DEPARTMENT OF DEFENSE

    Secretary Vickers. Chairwoman Tauscher, Ranking Member 
Everett, thank you for your leadership and the support you 
provide to our strategic forces.
    Distinguished members of the subcommittee, thank you as 
well.
    I appreciate the opportunity to be here today with you to 
report on the progress we are making in transforming our 
strategic capabilities to meet 21st century challenges. Indeed, 
as both you, Chairwoman Tauscher, and you, Ranking Member 
Everett, noted in your opening remarks, the strategic 
environment has changed dramatically since the end of the Cold 
War, and I would be happy to talk about that in greater detail 
in the question-and-answer session.
    To summarize, we have made considerable progress in the 
area of missile defense, substantially less progress in the 
areas of strategic strike, and we are working very, very hard 
to develop appropriate policies and capabilities in the rapidly 
evolving areas of space and information operations.
    Our nuclear forces remain our ultimate deterrent, and we 
look forward to supporting the efforts of the Bipartisan 
Commission on Nuclear Policy and Strategy in the 21st Century.
    We believe at some point, as Under Secretary D'Agostino 
said, our Nation will require modernized nuclear warheads. We 
believe those warheads would provide similar capabilities to 
the warheads we currently have, but would be less sensitive to 
manufacturing tolerances, aging of materials, hopefully be 
certifiable without nuclear testing, and very importantly have 
advanced safety and security features.
    As Under Secretary D'Agostino noted, we believe 
modernization of the infrastructure is even more important.
    I want to thank members of the subcommittee for your 
support of Prompt Global Strike (PGS). The funds that have been 
appropriated allow us to conduct research and development on a 
wide-range of technologies that hopefully will lead to an 
important capability in the near-to mid-term.
    In missile defense, we now have a multilayered initial 
system that is available today to protect the U.S. homeland, as 
well as our deployed forces, and our friends and allies. The 
U.S. remains committed to working with our allies in the field 
of missile defense.
    Japan reached a very important milestone this December when 
its Kongo Surface Combatant successfully intercepted a 
ballistic missile target with an SM-3 interceptor.
    We are concluding our negotiations on basing our long-range 
missile defense elements in Poland and the Czech Republic. We 
are cautiously optimistic that we will be able to complete an 
agreement with the Czechs imminently and with the Poles soon 
thereafter.
    It is our hope that at the upcoming Bucharest Summit in 
April, that NATO will be in a position to recognize the growing 
missile threat to Europe and support territorial defense as a 
means of addressing that threat and welcome the U.S. 
contribution to European missile defense, while recognizing 
that the Europeans have important work to do themselves.
    Because we wish to allay Russian concerns, we have met a 
number of times, over the past year, to share intelligence 
information, discuss transparency and confidence-building 
measures, and seek ways in which we could work jointly with 
them to address ballistic missile threats. We remain committed 
to working with them to address this common threat, while 
demonstrating that our missile defense program poses no threat 
to their strategic forces.
    We face a widening range of threats to our space 
capabilities, such as radio frequency jamming, laser blinding, 
and anti-satellite systems. The maturation of these threats 
requires a broad range of capabilities and options, from 
diplomatic to military, to assure our space capabilities and to 
protect our vital interest in space.
    The Department's investment strategy in space seeks to 
balance a number of requirements. We need to modernize Space 
Situational Awareness (SSA) capabilities, improve protection 
plans for space assets, develop architectural solutions, 
including Operationally Responsive Space (ORS) concepts, and 
then establish an operations posture to be able to respond to 
attack and maintain the ability to deny adversaries the use of 
space capabilities that could harm our forces or our homeland.
    In implementing our national space policy, we support U.S. 
Government efforts to promote safe, and responsible use of 
space and support voluntary guidelines for safe space 
operations.
    Finally, in the area of cyberspace, both Nation States and 
non-state actors continue to seek ways and means to counter the 
advantages we obtain from our use of information and to turn 
those same advantages against us in both conventional and 
unconventional ways. We are working very closely with our 
interagency partners to scope the missions that we will be 
asked to conduct, address our respective roles, both active and 
supporting, and determine how best to address potential 
adversaries' attempts to counter our information advantages. We 
are making progress, but much remains to be done.
    In conclusion, transformation of our Nation's strategic 
capabilities to meet the uncertainties and challenges ahead 
depends critically on a sustained partnership between the 
Department of Defense and Congress. I look forward to working 
with you to achieve our shared goals for developing and 
deploying the strategic capabilities our Nation requires.
    Thank you.
    [The prepared statement of Secretary Vickers can be found 
in the Appendix on page 61.]
    Ms. Tauscher. Thank you.
    General Chilton, and probably for also Assistant Secretary 
Vickers, I am deeply concerned that the Strategic Arms 
Reduction Treaty (START) is going to expire in 2009, and I 
believe that the United States should begin negotiating now on 
a binding verifiable agreement that would lead to further 
reductions in deployed nuclear forces.
    In your view, what are the risks and benefits to the United 
States of reducing the number of operationally deployed nuclear 
warheads below the Moscow Treaty's range of 1,700 to 2,200?
    General Chilton. Ma'am, I will take your question with 
regard to comfortability of the combatant commander below those 
numbers, given our current infrastructure, and then I would ask 
Secretary Vickers to comment on prospects of a follow-on for 
the treaty.
    Having looked at the nuclear infrastructure that Secretary 
D'Agostino just reviewed for us and the condition that it is in 
today--the fact that we do not have a production capability, 
which means we do not have the flexible infrastructure required 
to deal with an uncertain strategic future, which I think was 
another line of questioning I am looking forward to talk about 
given the age of our warheads and that we are not yet closed on 
whether we are going to go down a life extension or a 
modernized weapon program, but the distinct need that I feel as 
the combatant commanders, that as I look to the future, I will 
not have the tools to conduct my strategic deterrent mission if 
we do not move out in directions appropriately--given that 
construct, I am comfortable with 1,700 to 2,200 today, but I am 
not comfortable with considerations below that until we have 
that flexible capability, as a combatant commander.
    Ms. Tauscher. And before we go to Assistant Secretary 
Vickers, I just want to pull that string just a little bit 
because it seems to me that it would not only be the question 
of flexibility, but is it also about responsiveness of the 
complex?
    General Chilton. It is. Yes, ma'am. And I assume that word 
when I say flexibility, and I should not.
    When you have a responsive complex that has the capacity to 
flex to production as you may need it or adjust your deployed 
force posture in the future, should you need it--in other 
words, if we go to a lower number--you need to be certain that 
you can come back up, should the strategic environment change, 
and you cannot necessarily without that flexible or responsive 
infrastructure behind it, and that is probably one of my great 
concerns.
    And then how you posture both the portion of your stockpile 
that you hold in reserve, and your confidence in the weapons 
that you have deployed, is very much a function of modernizing, 
in my view, the weapons systems that we have available today, 
which are, as the Secretary described, of Cold War legacy 
design, and the associated issues with them.
    Ms. Tauscher. One more quick one before we go to Assistant 
Secretary Vickers. I do not want to put words in your mouth, 
but am I hearing you say that the more confidence you have in 
the existing responsive complex and in the weapons themselves, 
the more likely it would be that hedge weapons, so to speak, 
the reserve weapons, would be less important to maintain?
    General Chilton. Yes. You are not putting words in my 
mouth. I mean, that is what I have said before, and I believe 
firmly that if we can build a modern weapon that has increased 
reliability, the safety and security that we need for the 
threats that we face today, and is maintainable, and we have 
the responsive infrastructure that allows us to maintain them 
and also account for strategic uncertainty in the future, then 
the need for the large number of hedge weapons that we have on 
the shelf, that part of the on-the-shelf stockpile, part of the 
stockpile that is on the shelf, I believe can be dramatically 
reduced.
    Ms. Tauscher. Assistant Secretary Vickers.
    Secretary Vickers. I concur fully with General Chilton's 
assessment of where we are and what would enable us to go 
forward. The Administration is committed to pursuing a post-
START agreement with the Russians. We are in the early stages 
of that, however.
    Ms. Tauscher. We would, I think, like to know more about 
that. So perhaps we can get together and you can inform us as 
to where we are in that because I think that we do not want 
this just to begin to lapse as the Administration moves out the 
door and find ourselves in a gap period----
    Secretary Vickers. Yes, ma'am.
    Ms. Tauscher [continuing]. Especially with the change of 
Administration in Russia. It is important that we keep those 
lines open.
    Well, General Chilton and Assistant Secretary Vickers, in 
many ways, are the client or the users of these weapons Under 
Secretary D'Agostino. I guess I am moving over to you to talk 
about the fact that in fiscal year 2008, we made funds 
available for Advanced Certification, and the resources 
proposed in the fiscal 2009 budget request--how will you 
advance the process of answering the questions raised about the 
proposal to certify a Reliable Replacement Warhead without 
testing, considering the questions posed by many people, 
including the JASON Panel?
    Mr. D'Agostino. Okay. Thank you, Madam Chair.
    In fact, just today, this morning, I do not know if it was 
coincidence or not, there is a requirement in the 
appropriations to provide a report within 60 days on our plans 
for Advanced Certification. I signed out that report this 
morning. It addresses a couple of key areas, and so we are 
going to focus on experiments in this particular funding line 
in order to deal with questions on common failure modes that 
could happen, whether they are for existing warheads or for 
potential future systems. I mean, the focus is to address the 
JASON's report on RRWs, so we are going to kind of start there 
first.
    The second area has to do with our ability to do surety, 
take a look at physical features of surety and how they might 
impact certification. If you put a piece of surety technology 
into an existing warhead, how does that impact the 
certification piece? That was the second concern that JASON's 
had, and we have a plan to address that.
    The third piece had to do with material changes. If we use 
a material that is a little bit different than what we had in 
the Cold War stockpile--and there are cases where we have to do 
that because, in many cases, we are talking about materials 
that were manufactured 40, 50 years ago. In many cases, the 
manufacturing processes just do not exist anymore. We are not 
allowed to use certain chemicals that we have used in the 
past--how do those things rack up and stack up on top of each 
other and impact assessment as a whole? So that is going to be 
a huge part of that study.
    And the final area is peer review. Establishing not just 
peer review between lab to lab, which we currently have and I 
feel is quite good, but peer review that involves bringing in 
potentially another body, and potentially how we would kind of 
bring all of those peer review elements together to ensure that 
the stacking up of small changes on our existing Cold War 
stockpile or potential changes into a modern warhead and modern 
replacement warhead, and how those things impact.
    Right now, 15 million dollars was appropriated in 2008. We 
have requested 20 million dollars, a little bit more, in 2009 
because we think this is an area that is very important--to get 
to the bottom of the answers to those four particular questions 
that have come up. I feel good about that program. I think it 
is the right type of activity to do, and so we are marching 
down that path.
    Thank you.
    Ms. Tauscher. I am happy to recognize the Ranking Member, 
Mr. Everett, for his time.
    Mr. Everett. Thank you, chairman.
    And I thank all of you for your service.
    To pick up on the chairman's comment about your comfort 
level for the 1,700 to 2,200 nuclear warheads, how would Prompt 
Global Strike figure into that, or would it, because we are 
talking conventional as opposed to nuclear?
    General Chilton. You know, we think back on the new Triad. 
The tip of that triad is where we paid attention to strike, 
and, as you know, sir, kinetic nuclear, kinetic conventional, 
and then non-kinetic strike opportunities are the three areas 
where we are focused on.
    In the area of kinetic conventional, I think we have 
started to look at already how we can use some of the 
technologies that we have today to address some of the issues 
with regard to deterrents. I would say, for example, there are 
folks in the world today who I think are deterred in certain 
areas by the fact that we have the J-Series weapons that we 
have developed, and delivery platforms that just could show up 
overhead at some moment at the United States' choosing, and 
that in and of itself, even with the conventional capability, 
can be a deterrent in certain areas. Sometimes those are not 
adequate and, hence, we have nuclear weapons for a large number 
of target sets.
    Prompt Global Strike, I put in kind of two categories. One, 
it can also provide some strategic deterrent capability in line 
with maybe relieving some of the target sets that we would 
normally cover with nuclear, but that is not its greatest 
strength, in my view. I think the greatest strength of a Prompt 
Global Conventional Strike weapon is its ability to control 
escalation in some scenarios, but also to provide an additional 
arrow in the quiver, if you will, of the country to address 
emerging threats, that we might find a nuclear weapon 
application to be self-deterring to address that threat.
    And I will give you an example. Let us hypothesize there is 
a nation that were to field a robust anti-satellite capability, 
akin to the capability we saw demonstrated by the Chinese, and 
let us say that nation were to attack our satellites. With a 
robust capability, you could essentially deny a lot of the 
benefits, and most of the satellites that we rely on in low-
earth orbit (LEO) in very short order. I am talking not a week. 
I am not talking days. I am talking hours.
    And so when the phone rings on the STRATCOM Commander's 
desk on that scenario, because he is in charge of defending 
space, and the President says, ``General Chilton, make them 
stop,'' today, I can offer him a nuclear option. A country has 
attacked our space assets, but no American has died in this 
scenario. I am not saying that that would not be the option 
chosen, but wouldn't it be also nice to have a Prompt Global 
Conventional Strike capability in the quiver to be able to 
offer that to the President to make them stop? And that is 
where I think this concept has its greatest strength.
    Mr. Everett. It is obvious we cannot accept the Chinese 
continuing to dazzle with lasers our satellites. So, from a 
posture standpoint, when do we call on that Prompt Global 
Strike to help us? How do you make that decision? Do we let 
them continue to dazzle our satellites?
    Secretary Vickers. Well, are you talking about the decision 
to deploy a capability?
    Mr. Everett. Yes.
    Secretary Vickers. We believe the requirement exists for 
that capability today for the reasons that General Chilton 
outlined, that it will enhance deterrents against some 
situations, and it will also provide future Presidents with an 
expanded array of options in some important scenarios besides 
the ASAT scenario that General Chilton described. It could be 
terrorists with WMD, which is one of our gravest threats. It 
could be terrorists plotting other attacks in the homeland, and 
the only way to strike that might be with a rapid Prompt Global 
Strike weapon. It also may achieve deterrent effects against 
those who would be plotting by causing them to worry about such 
a capability.
    So we believe we need that capability now. We are pursuing 
a wide range of technologies in the research and development 
(R&D) program that we have been authorized to do, and we 
welcome Congress's support to move forward on this as soon as 
appropriate.
    Mr. Everett. General Keller said this morning that in 
regards to protecting our assets in space, that if we lose 
these assets that as far as the military was concerned that 
that would be a reverse time machine. We are told that we have 
redundancy. As I said in my opening statement, when you pull 
that string, though, we do not see much there.
    And perhaps that is the reason, Madam Chairman, that we 
might have a classified briefing later on.
    But we currently spend less than four percent of the entire 
defense space budget on SSA and space protection. Is that 
enough?
    General Chilton. Congressman, I share your concern. I have 
been a champion of SSA and improving investment of SSA for 
several years now, and it was one of the things I tried to 
emphasize as the Commander of Air Force Space Command, and now 
that they are supporting me, I continue to encourage that 
investment. And I am happy that we have gone from now 
investments in those programs to increased investments by a 
substantial amount. So I think we are headed on the right path 
here.
    But I think you bring up a broader point that is--because 
Space Situational Awareness is one element of what we need for 
space protection. The broader point that you bring up, I think, 
is right on the mark with regard to our dependence on these 
capabilities and the way we conduct military operations, and 
are we adequately exercising and preparing for the case where 
someone might counter those dependencies or try to deny us 
those dependencies.
    And we have a way to go in that area, I believe, 
particularly in the way we exercise, the way we are able to 
exercise, and the way we plan in the regions for our various 
war plans, to make sure that we do have the alternative paths 
to provide us with the capabilities that we will need to 
ultimately be victorious in whatever the scenario.
    But what I always caution here is that although we need a 
robust space element here, and we need to look at protection as 
well, we also need to make sure we are not putting all our eggs 
in one basket because we know we cannot have ever the perfect 
defenses. And so we need to consider in the case of 
communications, for example, robust terrestrial communications, 
robust space communications, and air-to-air communications that 
can back that up and integrate that, and we have work to do 
there.
    Mr. Everett. Well, how do you look at the fact that we have 
pretty much devastated the Transformational Satellite System 
(TSAT)? In the outyears, we are cutting four billion dollars 
from TSAT. What is that going to do to STRATCOM----
    General Chilton. Two things.
    Mr. Everett [continuing]. Or our Future Combat Systems 
(FCS) which cannot go forward without TSAT.
    General Chilton. I have two concerns with regard to the way 
ahead in global satellite communications.
    One, as the STRATCOM Commander, for my needs as the 
Commander of STRATCOM, I need uninterrupted, which means I 
cannot stand a gap in a capability for being able to do nuclear 
command and control, which means I need a secure survivable 
command and control system. I depend on today the Milstar 
satellite, in the near future the Advanaced Extremly High 
Frequency (AEHF) satellite, and TSAT would be the next part of 
that, and I am concerned that out in the 2018 and 2020 time 
period that we do not develop a gap there in this 
constellation. Now that is my parochial concern.
    From a broader concern, which I am chartered to advocate 
for for all the regional combatant commanders and services, you 
are right on with your remarks with regard to how TSAT is a 
critical element of the Army's Future Combat System. When we 
look at the growth in ISR that is programmed in and our needs 
and dependencies and the warfighter demands and the investments 
we are making in Global Hawks and other platforms, not to 
mention the need for a space radar system, and you look at how 
you are going to get that data moved around the planet and 
available to the warfighter on the edge of the battlefield, we 
need to increase bandwidth in that space-based capability.
    It is not just space. We need to look at terrestrial, but, 
again, I caution putting all our eggs in one basket. We learned 
what a very inexpensive anchor can do to terrestrial 
communications, and so I think we need to continue to move 
forward, increase the bandwidth that we provide to the 
warfighter, both in the terrestrial air-breathing and space 
element.
    Mr. Everett. Thank you for that.
    Am I correct in saying on the new AEHF that the terminals 
are not synchronized with it, or do you know----
    General Chilton. Let me take that for the record, and I 
will go back and check, but my understanding was that that was 
resynchronized, that they are, in fact, synchronized, but let 
me make sure I have that exactly right.
    Mr. Everett. Okay. Finally, I have some questions for the 
record concerning Prompt Global Strike that I would appreciate 
a prompt--hopefully--response to.
    General Chilton. Absolutely. Happy to do that.
    [The information referred to can be found in the Appendix 
beginning on page 93.]
    Mr. Everett. Thank you, chairman.
    Ms. Tauscher. Thank you, Mr. Everett.
    The gentleman from Washington, Mr. Larsen.
    Mr. Larsen. Thank you, Madam Chair.
    Secretary Vickers, in your testimony, you note on page 11 
that, ``DOD further implements our national space policy by 
supporting efforts to promote safe and responsible use of 
space. We seek mutually beneficial international cooperation on 
space activities, and support commercial and foreign space 
surveillance needs to ensure safe space operations,'' and you 
go on to say--and this is where my question comes--``DOD seeks 
to promote compliance with existing legal regimes, acceptance 
of international debris mitigation guidelines, and development 
of additional voluntary guidelines for safe and responsible 
space operations.''
    The first two seem to be fairly clear. Perhaps you can 
speak to that. But in particular, can you help us understand 
specifically what you mean by ``additional voluntary guidelines 
for safe and responsible space operations,'' and do you think 
it would be useful to establish international rules of the road 
for space operations?
    Secretary Vickers. Well, I believe we have pretty 
substantial rules of the road now in terms of some legal 
obligations, some shared understandings, but as space becomes a 
more cluttered environment, then the need for new measures, you 
know, as we found--as we went through the Cold War, for 
example, to take an analogy--where we developed procedures for 
naval peacetime interaction that was instrumental in providing 
some stability during the Cold War. That would be analogous to 
space.
    Specifically, what those might be, I think, will depend on 
as the situation evolves, but, you know, we took our 
obligations--General Chilton can speak to this much more 
expertly than I can--in terms of the recent shoot down very 
seriously depending on how things evolved that we knew we were 
legally obligated to do.
    Mr. Larsen. Sure. Well, I appreciate that. Your testimony 
does say DOD seeks to promote and so on. The way it is written, 
it would seem to me it says DOD also seeks to promote the 
development of additional voluntary guidelines. My curiosity 
is----
    Secretary Vickers. I----
    Mr. Larsen. Is that what DOD is doing, or are you tossing 
it out there for our consideration or----
    Secretary Vickers. No, I think it is----
    Mr. Larsen. How should I read that?
    Secretary Vickers. Right. I think it is a general goal, at 
this point, to ensure as space becomes a more complex 
environment that where we should have additional measures for 
safe operations that we pursue those commensurate with the rest 
of our national space policy which is to ensure freedom of 
action.
    Mr. Larsen. And that is my next set of questions, and 
perhaps General Chilton can start with the answers. It is on 
page 10 of Secretary Vickers' testimony, but I presume this is 
applicable to anybody sitting before me. ``The U.S. rejects 
claims of sovereignty by any nation over space; rejects 
limitations on the fundamental right to operate in or acquire 
data from space; and retains the right of free passage through 
and operations in space without interference,'' the national 
space policy.
    Let us, for the sake of this argument right now, assume 
China does not cause us any problems. Let us remove that from 
the table because I have heard enough China scenarios. Let us 
assume it is Russia, and Europe, and Japan with its commercial 
program, and so on. What do their national space policies say, 
and are they consistent with ours, and what do we do to sand 
off the rough edges that we might have with other countries? 
For instance, if we retain the right of free passage through 
operations in space without interference, do the Europeans have 
a problem with that, or do they have the same one? And what 
happens if we conflict, not militarily, of course, but in terms 
of operationally, you know, what happens?
    General Chilton. Sure.
    Mr. Larsen. How are we thinking about that? And you can 
understand why I want to get away from China.
    General Chilton. I think----
    Mr. Larsen. I want to have a rational conversation about 
it.
    General Chilton. Sure. I think I understand.
    I am reminded of a story I heard once. I think it was in 
the State of Ohio when they had the first automobile accident, 
when automobiles were first invented, and at the time, there 
were only two automobiles in the entire State of Ohio, and they 
managed to run into each other. So, you know, probably shortly 
after that, somebody sat down and said, ``Well, maybe when we 
pass, we will go to right,'' or, you know, ``If you are coming 
head on, I will go right, you go right, and we will miss,'' you 
know, those rules, those kinds of things, or the concept in 
seafaring where nations demand the right of free passage on the 
ocean. Somehow we figured out, you know, you put the green 
light on the right side of your ship and the red light on the 
left and there are certain rules for passing from the rear, et 
cetera.
    Now Keplerian dynamics in space takes care of a lot of that 
stuff for you automatically, but simple, open dialogue, I 
think, is what is most important. You know, we all do station 
keeping with our satellites up there, particular a 
geosynchronous orbit, and so some satellites move--and we are 
watching that--and starting to be on a path that is getting 
close to ours. So then we have to decide are we going to move 
or what is going to happen or we will watch it for a while, and 
so if we have open dialogue and understanding and 
communication, like, ``Hey, I am getting ready to do station 
keeping on this, so that you will know, and here are my 
parameters, and here us where I am, and here is where I am 
going, do not worry.'' It relieves some of that.
    Those are kind of the open dialogue kind of discussions I 
think we can have. We are not at the red light-green light 
phase in this domain yet, but I think--and I do not want to put 
words in the secretary's mouth, so I will let him respond as 
well. As we look to the future, what are those kind of 
dialogues and what discussions should we have?
    Mr. Larsen. That is exactly it. In your testimony, in 
previous testimonies last year, and from other folks, there is 
this concern about increasing use, and we have looked at it 
through Chairman Everett's leadership at the time, getting it 
started, talking about how we use space and trying to educate 
people on how we use space, why it is important that we are 
there and what we do to protect our assets up there.
    But that can be said for many other countries, too. They 
want to protect their assets. We want to protect what we have. 
And there is a lot of space in space, obviously, but it still 
seems that with everybody wanting to use it perhaps at the same 
orbits, are we getting to a point where we need to have more 
thoughtful discussions than just having, you know, the open 
dialogue, more structured discussions, I guess.
    General Chilton. I am not sure yet, but, I mean, we are 
past the point of not having any dialogue. We certainly need to 
have that, and----
    Mr. Larsen. No, no, no. I understand.
    General Chilton. I think we have to be careful about 
thinking about making rules and restrictions that are 
unenforceable, too.
    Mr. Larsen. Sure.
    General Chilton. With regard to space debris, for example, 
I think that is a good one. So we came to a conclusion a few 
years ago that the way the United States and Russia mostly, at 
the time the Soviet Union, were launching things in orbit, we 
were not paying much attention to the fact that our upper 
stages after a few months in orbit sometimes exploded because 
the tanks overpressurized, you know, because we were not 
worried about it.
    But, you know, then we started keeping track of the stuff 
up there and said, you know, ``This is heading in the wrong 
direction. Ultimately, we are going to create so much debris up 
there,'' and so we kind of agreed as spacefaring nations that 
we were going to mutually try to reduce the amount of debris 
generated in just normal launch and orbit operations. Russia 
does that, and we do that to the best we can, and those are the 
kind of open dialogues that responsible spacefaring nations 
ought to have and encourage folks to adopt and do it.
    But to say, ``Okay. I am going to say you must design this 
into your rocket,'' you this other country, ``to operate in 
space,'' that is an unenforceable rule, so better to have the 
dialogue and get reasonable response and behavior to include 
sharing information and sharing best practices and adopting 
those, I think, at this stage of where we are in space.
    Mr. Larsen. Did you have anything else to share?
    Secretary Vickers. No. I mean I would agree on the debris. 
The point is we do have a number of standing instruments 
already that we adhere to, and we are in discussions, you know, 
to try to further develop some. You know, on the other hand, it 
has to be consistent with the rest of our space policy where 
General Chilton, as combatant commander, has responsibility as 
a warfighter that we do not unduly restrict his, you know, 
options as well.
    Mr. Larsen. Thank you.
    Ms. Tauscher. I would like to notify members we have been 
told that we may have votes, a series of two or three, between 
3:00 and 3:15. So I want to go to Mr. Franks from Arizona, and 
then we would like to get to Mr. Thornberry, if we could. So, 
if you guys could restrict to five or six minutes, I would 
appreciate it. And then, hopefully, we will get a second round.
    Mr. Franks from Arizona.
    Mr. Franks. Well, thank you, Madam Chair.
    And I thank all of you for being here. You know, you guys 
are the ones that keep watch for all of us, and I appreciate it 
very, very much.
    And, General Chilton, I just want to say a special word of 
congratulations to you. It was a good day for America when you 
became the Commander of Strategic Command. I say that, I think, 
on behalf of the entire committee.
    General Chilton. Thank you, sir.
    Mr. Franks. I had the privilege of meeting this morning 
with General Keller, and he emphasized not only the 
interdependency, but the critical importance of America being 
dominant, not only in air, but in space and in cyberspace, 
because of the way that they all work together, and in his 21st 
century white paper, General Mosley says essentially the same 
thing, and he expounded on that in the committee this morning.
    And I just think that your successful test here sort of 
reflects all of that. When you knocked down this satellite, you 
proved that the Aegis is now a working system and that the 
connection between those three areas is vitally important. And 
I am wondering if you think, General Chilton, that it is time 
to move some of these missile defense assets out of the MDA 
research and development budget lines and into the procurement 
budget lines for services like the Air Force and others to 
begin to take over and to operate.
    General Chilton. Well, thank you, Congressman.
    And thank you for the compliment, particularly over the 
activities last week. I would just add for the record, from my 
perspective, it was a tremendous joint effort and interagency 
effort, all of government. So many departments and agencies 
participated in that, not only in the execution, but in the 
preparations we were making for the contingency where we might 
be unsuccessful in destroying the tank, and offering U.S. 
assistance to the nations of the world, as Madam Chair said, 
because we were responsible and we took that responsibility 
seriously. So thank you for recognizing that.
    You asked a great question with regard to the balance 
between R&D, procurement, and operation and maintenance (O&M) 
of systems, and I have thought about this a bit, and, of 
course, we work very closely with MDA. I am familiar with how 
they spend their budgets, and I know that the services are 
under a lot of stress today for not only ongoing operations, 
but in particular, in my parent service, the Air Force, for the 
urgent recapitalization needs they have, the Army for the needs 
that they will have in the future, not only building systems 
like FCS, but in reconstituting after this tough fight they 
have been in. So there is going to be this tension here on 
where best to take the money from.
    I would just caution that we do not throw the baby out with 
the bathwater with regard to the Missile Defense Agency (MDA). 
I have been in the test business before in my career and a 
little bit in acquisition when I was at the National 
Aeronautics and Space Administration (NASA) for the Space 
Station Program. I am absolutely amazed how far and how fast we 
have come in the last five years in fielding a capability with 
the construct we have set up in the Missile Defense Agency, and 
so, as we look to the future and there will be challenges on 
finding the monies to field these systems and the inventories 
that we need, whether they be THAAD or Patriot Advanced 
Capability-3 (PAC-3) or Aegis or the new systems that are 
coming on board, like Airborne Laser (ABL), et cetera. There 
will be tensions there, but we have to be careful not to break 
something that is working pretty darn good at getting new 
capabilities out there.
    It is a tough problem, Congressman. I wish I had an answer. 
You know, the easy one is more TOA, but I know the challenges 
that presents, as well to the country.
    Mr. Franks. Well, listen, I want to, Madam Chair, give Mr. 
Thornberry a chance here.
    So I just want you to know that I think this missile 
interception of the satellite showed that you have a missile 
defense asset to performing a space mission, and it really, in 
my mind, demonstrates that there is really more of a 
psychological or artificial line between national security, 
space, and missile defense, and it is important, I think, that 
the two be emphasized and work together. I know that that is 
against kind of the perspective of the service.
    So, congratulations again. I would like to ask more 
questions, but I want to make sure Mr. Thornberry has time.
    General Chilton. Thank you, sir.
    Ms. Tauscher. I appreciate that, Mr. Franks.
    Mr. Thornberry of Texas.
    Mr. Thornberry. Thank you, Madam Chair, and I appreciate my 
colleague from Arizona.
    Although I think these people have been too easy on you 
all----
    [Laughter.]
    Mr. Thornberry. And let me play devil's advocate just a 
little bit. Both General Chilton and Secretary Vickers have a 
tremendous number of things in your area of responsibility 
(AOR). A lot of things I am very interested in.
    There is a lot of intellectual energy going on right now 
about how the Nation faces the threat in cyberspace. Mr. 
Everett has been pushing, and there is, I think, a lot of 
intellectual energy in planning and thought into space for the 
future.
    I do not see any of that intellectual energy on what 
nuclear deterrence means in the future. I do not hear anybody 
talking about, ``Okay, the characteristics of a nuclear weapon 
that would effectively deter whoever, everybody, whoever in the 
21st century would be this, and we cannot really test that. We 
can only do this, and here is the difference between the ideal 
weapon that would deter and what we can produce.''
    I do not see any of that, particularly in the Department of 
Defense, and some people would even argue that nuclear 
deterrence has atrophied to some extent in the Defense 
Department, and so Secretary D'Agostino--you know, his folks 
are just kind of left to keep on doing what they are doing.
    Now, what am I missing?
    General Chilton. Well, I think your concerns are well 
founded. What you are missing, I would say, Congressman, 
recently, is the comments I made at the Strategic Weapons in 
the 21st Century Conference two or three weeks ago at the 
Reagan Building and a speech I gave at AFA last week where I 
stood up and addressed those things, those very concerns that 
you mentioned.
    And here is kind of the crux of my message; nuclear 
deterrence will be every bit as important for the remainder of 
this century. My children and grandchildren will need a nuclear 
deterrent. I do not think that is in conflict at all with the 
desire to reduce nuclear weapons. It is just a reality.
    I think in the Cold War, my parent service in particular, I 
would argue there was none better at knowing and understanding 
what it meant to provide strategic nuclear deterrents for this 
Nation. When the Cold War ended, we found ourselves as a Nation 
in a lot of shooting wars, conventional shooting wars, and the 
Air Force will tell you they have been in a shooting war, they 
have had people in harm's way since 1991, with our part in 
Southern Watch and Northern Watch going throughout all the 
1990's right on into our current conflicts.
    For sure, since 2001, we have been focused on conventional 
warfare and unconventional warfare in this Nation, and I would 
say perhaps we have lost some focus on that area that you just 
described that I believe is so important for the future, as 
well. And I would put the focus in this regard: We must 
continually remind ourselves that in a world of strategic 
nuclear deterrence, readiness is a mission.
    It is not bomb-found targets. It is being able to show the 
world that you are able to do that, and that takes trained 
people, it takes adequate delivery systems, and in the end, it 
takes a warhead that is designed for the 21st century, not for 
the 20th century, and what we have today in our inventory are 
warheads that are designed for the 20th century where the 
principle design requirement was, because of the size, the 
numbers we needed, and the limited number of delivery vehicles 
and the size of those delivery vehicles that we had, maximize 
the bang and minimize the volume.
    And we were able to take risks in reliability because we 
had a robust test program and we had a robust manufacturing 
program, and we designed and planned to replace those weapons 
every 20 years. And we could take risks in safety and security 
and we could take risks in maintainability because safety and 
security were not as high on the list as getting the numbers up 
there in that Cold War, and maintainability was not as required 
if you planned to replace them every 20 years, and you had a 
robust production capability.
    The world has changed. Tomorrow, we worry because of the 
terrorist threat more about safety and security. We have zero 
production capacity in this country. I would argue that for Mr. 
D'Agostino that being able to produce 8 to 10 a year as a 
production capability--I have been to that facility. It is a 
laboratory. It is not a production facility. And we no longer 
want to test.
    So, in that environment, I would say our number one 
requirement for the modern warhead is reliability. Our numbers 
two and three are safety and security. And maintainability is 
on that list as well. That is what I need as a combatant 
commander, to provide strategic deterrents for this country, 
nuclear deterrents, in the coming century.
    Secretary Vickers. I think there is a lot of thinking going 
on on strategic deterrence. We are still working our way 
through it. I think it is fair to say the problem has gotten a 
lot more complicated in the sense we face a wider range of 
actors, including now non-state as well as state, that require 
more tailored deterrent concepts against a wider array of 
actions we are trying to deter and with a wider range of 
instruments, integrating that with Prompt Global Conventional 
Strike, non-kinetic attack, and particularly in the area of 
non-kinetic, that area of deterrence is really challenging, and 
we are putting a lot of effort into that.
    In general, I think cutting across those areas, 
complicating the deterrence problem is the growing challenge of 
attribution which cuts across a number of potential threats 
where our ability to positively attribute an attack is central 
to our ability to deter it or adequately respond. So we are 
working hard. I think it is fair to say that there are a number 
of these areas where we are not as far along as we were in the 
Cold War, but we are working on it.
    Mr. Thornberry. It just seems clear to me--and I know to 
you all too--that if we do not take ourselves seriously, the 
bad guys are not going to take it seriously either when it 
comes to nuclear deterrence.
    And I know we are out of time. We have to vote. Mr. 
D'Agostino, one of the things I would like to ask you to do for 
the record, since we have to go, is can you give us the 
potential disadvantages or concern of the Stockpile Stewardship 
Life Extension Program only approach without RRW? I would like 
those listed if you can send something up to us, you know, 1 
through 5 or 10 or whatever it is. I think that helps us to 
make the balance.
    And I yield back, Madam Chair.
    [The information referred to can be found in the Appendix 
beginning on page 96.]
    Ms. Tauscher. I think maybe we can just have a briefing on 
that. I think we would like to sit around the table and kick 
that around.
    Mr. D'Agostino. I would be glad to do that. Thank you.
    Ms. Tauscher. General Chilton and Under Secretary 
D'Agostino and Assistant Secretary Vickers, we are faced with 
about 40 minutes of votes. We want to thank you. The committee 
wants to thank you very much for being here today. Your 
testimony was very comprehensive that you sent up to us. We 
obviously see you all the time. We are very happy to do this. 
We like to do it in public.
    We want to recognize the people setting behind you and the 
people sitting around us. Obviously, all of your staffs have 
worked very, very hard. They serve the American people 
sometimes very quietly, certainly anonymously. We want to thank 
our subcommittee staff for their hard work, too.
    And we thank you very much for appearing before us today, 
and we look forward to the continued relationship. We, 
obviously, have a long list of things we are going to do. Thank 
you very much.
    Secretary Vickers. Thank you.
    General Chilton. Thank you.
    Mr. D'Agostino. Thank you.
    Ms. Tauscher. The hearing is adjourned.
    [Whereupon, at 3:15 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                           February 27, 2008

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 27, 2008

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T3250.001
    
    [GRAPHIC] [TIFF OMITTED] T3250.002
    
    [GRAPHIC] [TIFF OMITTED] T3250.003
    
    [GRAPHIC] [TIFF OMITTED] T3250.004
    
    [GRAPHIC] [TIFF OMITTED] T3250.005
    
    [GRAPHIC] [TIFF OMITTED] T3250.006
    
    [GRAPHIC] [TIFF OMITTED] T3250.007
    
    [GRAPHIC] [TIFF OMITTED] T3250.008
    
    [GRAPHIC] [TIFF OMITTED] T3250.009
    
    [GRAPHIC] [TIFF OMITTED] T3250.010
    
    [GRAPHIC] [TIFF OMITTED] T3250.011
    
    [GRAPHIC] [TIFF OMITTED] T3250.012
    
    [GRAPHIC] [TIFF OMITTED] T3250.013
    
    [GRAPHIC] [TIFF OMITTED] T3250.014
    
    [GRAPHIC] [TIFF OMITTED] T3250.015
    
    [GRAPHIC] [TIFF OMITTED] T3250.016
    
    [GRAPHIC] [TIFF OMITTED] T3250.017
    
    [GRAPHIC] [TIFF OMITTED] T3250.018
    
    [GRAPHIC] [TIFF OMITTED] T3250.019
    
    [GRAPHIC] [TIFF OMITTED] T3250.020
    
    [GRAPHIC] [TIFF OMITTED] T3250.021
    
    [GRAPHIC] [TIFF OMITTED] T3250.022
    
    [GRAPHIC] [TIFF OMITTED] T3250.023
    
    [GRAPHIC] [TIFF OMITTED] T3250.024
    
    [GRAPHIC] [TIFF OMITTED] T3250.025
    
    [GRAPHIC] [TIFF OMITTED] T3250.026
    
    [GRAPHIC] [TIFF OMITTED] T3250.027
    
    [GRAPHIC] [TIFF OMITTED] T3250.028
    
    [GRAPHIC] [TIFF OMITTED] T3250.029
    
    [GRAPHIC] [TIFF OMITTED] T3250.030
    
    [GRAPHIC] [TIFF OMITTED] T3250.031
    
    [GRAPHIC] [TIFF OMITTED] T3250.032
    
    [GRAPHIC] [TIFF OMITTED] T3250.033
    
    [GRAPHIC] [TIFF OMITTED] T3250.034
    
    [GRAPHIC] [TIFF OMITTED] T3250.035
    
    [GRAPHIC] [TIFF OMITTED] T3250.036
    
    [GRAPHIC] [TIFF OMITTED] T3250.037
    
    [GRAPHIC] [TIFF OMITTED] T3250.038
    
    [GRAPHIC] [TIFF OMITTED] T3250.039
    
    [GRAPHIC] [TIFF OMITTED] T3250.040
    
    [GRAPHIC] [TIFF OMITTED] T3250.041
    
    [GRAPHIC] [TIFF OMITTED] T3250.042
    
    [GRAPHIC] [TIFF OMITTED] T3250.043
    
    [GRAPHIC] [TIFF OMITTED] T3250.044
    
    [GRAPHIC] [TIFF OMITTED] T3250.045
    
?

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                           February 27, 2008

=======================================================================

      
                  QUESTIONS SUBMITTED BY MS. TAUSCHER

    Ms. Tauscher. The House-approved FY 2008 defense authorization bill 
contains a provision establishing a strategic commission to evaluate 
U.S. strategic posture for the future, including the role that nuclear 
weapons should play in the national security strategy. What key 
questions should the commission consider?
    General Chilton. Today we can predict neither who our adversaries 
might be in 2030-2040, nor the precise nature and scale of the threats 
they might pose to our security in that timeframe, any more than our 
predecessors in 1940 could predict the threats we would face in 1962-
1972, not those in 1980, could predict the threats we would face in the 
2002-2012 period. Yet, decisions we make in the next several years will 
profoundly shape the strategic forces, both conventional. and nuclear, 
kinetic and non-kinetic, that we will have available out to 2030-2040. 
Thus, our challenge in defining and building our future strategic 
posture is to address the Nation's security needs over decades, not 
years. This means our focus must be on what our forces will need to be 
able to do now and in the future, rather than on specific threats they 
will need to counter. With such a comprehensive, capabilities-based 
approach in mind we suggest the commission consider the following 
questions:

      1.  Over the next two or three decades, what must U.S. forces and 
supporting infrastructure be able to do in order to:

            a.  Assure our allies regarding our security commitments

            b. Dissuade undesirable military competition

            c. Deter attacks on our vital interests

            d.  Defend U.S. vital interests and, if necessary, defeat 
        any adversary in a manner that results in an outcome favorable 
        to U.S. interests

    What are the strategic capabilities required to enable U.S. forces 
to do what is required in pursuit of these goals over that timeframe?

      2.  What roles do U.S. nuclear weapons play in that set of 
strategic capability requirements? Which of these roles are unique to 
nuclear weapons? Which of these roles represent a contribution nuclear 
forces make to the broader strategic posture and capabilities set?

      3.  What are the decision and programmatic timelines associated 
with providing the identified strategic capability requirements, 
including essential supporting infrastructure?

      4.  How can a bipartisan consensus be built behind the identified 
set of strategic capability requirements so that the required decisions 
can be made and sustained?

      5.  How should we posture our nuclear weapon enterprise today to 
be able to adequately respond to future technological surprise or a 
sudden change in the national security environment?

    Ms. Tauscher. What has changed in our security environment since 
the last Nuclear Posture Review (NPR) that should be emphasized in the 
strategic commission?
    General Chilton. Since the 2001 NPR, a number of significant events 
and programs have changed our strategic security environment:

    <bullet>   Initiation and conduct of the global war on terror in 
response to al Qaeda attacks on the U.S.

    <bullet>   Profound intelligence failures regarding WMD programs in 
Iraq

    <bullet>   China tested an anti-satellite weapon and continues an 
extensive modernization of their conventional and nuclear forces

    <bullet>   North Korea tested a nuclear weapon and launched a Taepo 
Dong 2 missile

    <bullet>   The U.S. and Russia stayed on track to meet the nuclear 
weapons stockpile limits set by the Moscow Treaty

    <bullet>   Iran has made important advances in its pursuit of 
nuclear technology and long range missiles

    <bullet>   State and non-state actors continue to pursue and 
proliferate ballistic missile and WMD technology

    <bullet>   Increased global dependence on cyberspace and the threat 
posed by increasing cyber intrusions

    <bullet>   Growth of U.S. Ballistic Missile Defense system 
capabilities

    Intensification of multiple pre-2001 global trends:

        <all> Ethnic and religious conflict

        <all> Increasing international demand for diminishing resources

        <all> Economic rise of China, India, and Russia

        <all> Evolution of the NATO alliance

        <all> Lack of governance in ``failed states''

    Ms. Tauscher. What are the gaps or shortfalls between the objective 
capabilities in the New Triad identified in the last NPR and our 
Nation's current strategic capabilities? Where is the most and the 
least progress being made? Please describe any impediments to achieving 
the objectives outlined in the New Triad.
    General Chilton. The New Triad strategy mandates a broader set of 
capabilities to ensure a credible deterrence in the 21st century. In 
addition to the legacy nuclear TRIAD, it envisions a mix of advanced 
offensive and defensive capabilities enabled by a robust infrastructure 
and improved command and control, planning, and Intelligence, 
Surveillance, and Reconnaissance capabilities. Since 2001, USSTRATCOM's 
Integrated Priority List has reflected capabilities necessary to 
achieve the strategy. In addition, we have been working very closely 
with the other Combatant Commanders to articulate capabilities needed 
using the Senior Warfighters Forum process. The most significant 
advancements have been made in reducing our legacy nuclear forces to a 
level commensurate with our national security needs and fielding an 
initial missile defense capability. Key challenges remain, including 
recapitalizing the Nation's aging nuclear infrastructure, fielding a 
conventional prompt global strike capability, developing a robust cyber 
operations capability, improving space situational awareness, 
increasing satellite communications throughput and information 
transport capabilities, and evolving to a modern National Command 
Capability. We must ensure we are taking the right steps to have the 
human capital available to support these varied missions and understand 
that further reductions of the nuclear stockpile are constrained by the 
ability of the nuclear infrastructure to respond to a technological 
surprise, or a national security need. The New Triad strategy requires 
significant transformation and recapitalization, including a 
significant fiscal commitment and continued balancing of risks along 
the path.
    Ms. Tauscher. What do you believe are the security threats with the 
greatest implications for our strategic posture, policies, and 
capability investments?
    General Chilton. The greatest strategic security threats are those 
that would prevent U.S. military freedom of action in the Air, 
Maritime, Space, and Cyberspace domains. These are strategic domains 
that are fundamental to the global projection, command and control, and 
sustainment of U.S. military power. Without freedom of action in these 
domains the U.S. would be unable to defend its vital interests both at 
home and abroad.
    Threats that would deny U.S. use of space and cyberspace 
capabilities also have strategic implications. Our dependence on 
Cyberspace and space-enabled capabilities creates potential 
vulnerabilities with far reaching implications. We depend on cyberspace 
and space.
    Weapons of mass destruction in the hands of non-state actors or 
rogue states, particularly those with regional or global delivery 
systems is another security threat we face today. Non-state actors' 
attempts to acquire WMD combined with challenges to the political 
stability of several nuclear-capable nations undermine non-
proliferation efforts and present a serious threat to our national 
security today and in the foreseeable future.
    Ms. Tauscher. After taking command in October and reviewing 
STRATCOM's missions, organization, and priorities, please comment on 
your assessment of the command. What, if any, changes you might 
implement?
    General Chilton. I have been privileged to find a Command filled 
with such a hardworking team of military and civilian members. The 
Command has done an extraordinary job adapting to--and achieving 
successes in executing--tasks across the range of assigned missions. As 
we move forward in refining our execution of Unified Command Plan 
assigned missions, our biggest efforts will be in operationalizing our 
abilities to execute within two key sets of missions. The first are our 
primary lines of operation, the areas where we are executing operations 
across boundaries each and every day: Space, Cyberspace, and Strategic 
Deterrence. The second set are missions where we work to find and knit 
together the gaps and seams between Commanders' areas of 
responsibilities and capabilities to enable mission effectiveness: 
Integrated Missile Defense, Combating Weapons of Mass Destruction, 
Intelligence, Surveillance, and Reconnaissance, and Information 
Operations.
    Structurally, our Command and subordinates can execute assigned 
missions, in some cases, requiring manpower augmentation to achieve the 
desired capacity. We plan no structural changes but are studying the 
manpower alignment among our components.
    Ms. Tauscher. Today, while STRATCOM is active in setting 
warfighter's requirements for military capabilities, it is the 
responsibility of the services to fund and develop those capabilities. 
Please describe the working relationship between STRATCOM and the 
services.
    General Chilton. USSTRATCOM works to maintain an effective working 
relationship with each of the Services to fund and develop warfighting 
capabilities. USSTRATCOM's annual Integrated Priority List (IPL) is our 
entry point into Service budget process. The IPL clearly outlines those 
warfighting capability gaps we assess as unacceptable and serves as a 
valuable mechanism to focus the Services during development of their 
respective budgets. Throughout the budget cycle, we work directly with 
the Services, our Components, the Joint Staff and OSD to identify, 
develop and fund programs required to close these gaps. This year for 
example, USSTRATCOM conducted a detailed review of the IPL with each 
Service component. The session was conducted early in the development 
cycle for Service budgets: USSTRATCOM is also an active participant in 
review and assessment of Service budgets before they are submitted to 
the President. In summary, we enjoy a positive relationship with the 
Services and I am satisfied the processes we participate in ensure our 
requirements are visible and appropriately adjudicated.
    Ms. Tauscher. What strategic missions and warfighter needs are not 
being met by the current DOD investment portfolio?
    General Chilton. USSTRATCOM continues to monitor the state of our 
nuclear force and we are actively engaged with our Service Components 
to ensure timely investments are made to replace aging components' 
before they reach end-of-life, fill existing gaps, and begin required 
research and development to preclude future capability gaps. We need 
Congressional support to fund the Department's request for a 
Conventional Prompt Global Strike (PGS) capability and a reliable 
replacement warhead. With regard to our ability to strike high-value, 
time sensitive targets in denied territory, current response options 
available to our Nation's leadership are limited to either the 
availability of pre-positioned conventional forces or a self-deterring 
long-range nuclear response. PGS provides a responsive flexible option 
to achieve national security objectives. In addition, I am increasingly 
concerned with the Nation's ability to sustain a safe, secure, and 
reliable nuclear warhead stockpile in the absence of underground 
nuclear testing.
    In the 21st Century, the mindset of space as purely an ``enabler'' 
must change. The Chinese kinetic Anti-Satellite test (ASAT) conducted 
in early 2007 made it clear that space is not a sanctuary. Our 
adversaries understand our dependence upon space-based capabilities and 
are actively developing capabilities that will challenge our Nation's 
dominance and could deliver a crippling blow to national defense. I 
request continued Congressional support in the development and fielding 
of a credible deterrent capability to deter and if necessary defeat any 
and all threats to our space systems.
    In the cyber arena, the Department's technology investments are 
making a difference, but the ever increasing threat is rapidly 
outstripping our manpower resources. Implementing a strategy to build 
the required cyber workforce is a high priority as we enter the next 
budget cycle. Our challenge is to define, shape, develop, deliver, and 
sustain a cyber force second to none, and our most pressing need is to 
produce adequately trained cyber warfare personnel. Congressional 
support of the President's budget will enable DOD to expand the 
training pipeline, and we pledge to work with Congress as we develop 
our future resource and manpower requirements for DOD cyber 
capabilities.
    Ms. Tauscher. Please describe the process involved in setting 
requirements for the future nuclear force structure. What is STRATCOM's 
role? What obstacles or challenges might be impeding more specific 
definition of military requirements for the future nuclear force 
structure?
    General Chilton. National level policy and strategy provide the 
guidance for DOD's processes which determine requirements, guide 
acquisition, and allocate resources. These processes are informed by 
analyses conducted in a collaborative manner between the Services, 
Joint Staff, Combatant Commanders, and the Office of the Secretary of 
Defense. USSTRATCOM is a principal participant in these analyses and is 
responsible to identify military requirements to the Joint Requirements 
Oversight Council and advocate for sufficient funding in DOD's budget 
formulation process. USSTRATCOM is also a statutory voting member of 
the Nuclear Weapons Council and is instrumental in the development of 
nuclear stockpile,, requirements. The key challenge we face in our 
desire to reduce nuclear force structure to the lowest level necessary 
to meet national security requirements is our lack of progress in 
building a responsive nuclear infrastructure and replacing our cold war 
era designed and built nuclear weapons with a family of more reliable, 
safe, secure, and maintainable weapons.
    Ms. Tauscher. What warfighter requirements could be met by the 
proposed RRW? Can these needs be satisfied by maintaining the current 
stockpile through the Stockpile Stewardship Program and Life Extension 
Programs (LEPs)? Why or why not?
    General Chilton. Modern replacement warheads will enable us to 
improve performance margins (which yields increased), security, safety, 
and maintainability of our nuclear stockpile. Our Cold War era warheads 
have decreasing performance margins (and hence decreasing reliability) 
and are becoming increasingly difficult and expensive to maintain and 
certify. Life extension programs do not allow increases to performance 
margins, security, and safety of the current stockpile. The real risk 
is that we could someday detect a catastrophic technical failure of a 
family of Cold War era warhead and are unable to repair and certify the 
warhead. We believe these risks are higher for the current stockpile 
than for modern replacement warheads. To mitigate these risks, we 
continue to maintain a larger hedge of non-deployed warheads than would 
be necessary for a stockpile of modern warheads. Fielding a family of 
warheads with increased margin, safety, security, arid maintainability 
prioritized in the design criteria will allow a reduction in the 
nondeployed nuclear stockpile. Current weapons remain safe and secure, 
but in today's security environment and with modernization, we can and 
should do better. The American people deserve the safest, most secure 
and reliable stockpile we can deliver without underground nuclear 
testing.
    Ms. Tauscher. What risks do you see, if any, in pursuing an ``LEP 
only'' strategy, as opposed to proceeding with the reliable replacement 
warhead? Are there force structure implications based on whether the 
Nation pursues a ``LEP only'' or RRW approach? If so, what?
    General Chilton. It is increasingly challenging and expensive to 
certify and maintain legacy warheads. The most significant risk is our 
potential inability to certify the reliability of a weapon after 
detecting a significant technical failure that we previously would' 
have resolved with underground nuclear testing. We believe these risks 
are greater for our highly optimized, Cold War era warheads that 
required nuclear testing in the past than for modern replacement 
warheads optimized for certification without nuclear testing. To 
mitigate these risks we continue to maintain a larger hedge of non-
deployed warheads than would be necessary otherwise with a more modern 
design. The warhead sustainment approach we take has implications for 
the stockpile size but not for force structure size (i.e. the 
composition and mix of nuclear delivery systems). Force structure 
requirements are dictated by policy.
    Ms. Tauscher. How do decisions on future delivery systems (e.g., 
JCBM, bomber modernization) impact RRW capabilities and timelines? 
Conversely, how do RRW decisions influence development of future 
delivery systems?
    General Chilton. Modern replacement warheads must provide the same 
military capability as the legacy warheads they replace. We are not 
advocating for new nuclear capabilities. With respect to legacy 
systems, we will make different trades than were made during the Cold 
War to make the warhead compatible with an existing system. For 
example, a modern replacement warhead might have less explosive power--
which is OK--given the increased accuracy of our delivery systems. With 
respect to future delivery systems, we think it will enable us to take 
full advantage of the attributes a modern replacement warhead provides 
when designing those systems resulting in improved reliability, safety, 
security and maintainability.
    Ms. Tauscher. What role would RRW play in the Nation's overall 
strategic deterrence objectives, particularly given investments in a 
conventional PGS capability?
    General Chilton. The increased reliability, safety, security, and 
maintainability of modern replacement warheads provides increased 
confidence in our ability to meet our strategic deterrence objectives. 
This will enable us to further reduce our reliance on non-deployed 
warheads to achieve the smallest nuclear stockpile consistent with 
national security requirements. PGS capabilities, when fielded, will 
provide non-nuclear strike options contributing to deterrence but will 
not eliminate the need for a credible nuclear deterrent. The U.S. will 
maintain nuclear weapons as long as other nations continue to possess 
them.
    Ms. Tauscher. The FY 2008 re-direction of Conventional Trident 
Modification (CTM) funds precludes the leading option for a near-term 
PGS capability. What options will be explored with the funding ($117.6 
million) proposed for FY 2009?
    General Chilton. Broadly speaking, USSTRATCOM's goal is to 
coordinate Air Force, Navy and Army research, development, test and 
evaluation efforts through recommendations for the Defense wide Prompt 
Global Strike account which is being managed by the Office of the Under 
Secretary of Defense for Acquisition, Technology & Logistics--to mature 
key enabling technologies required to deploy a land-based PGS 
capability as soon as possible.
    Ms. Tauscher. What are the military's requirements for mid-term and 
long-term PGS capabilities? Can you comment on potential scenarios 
where a PGS capability would be used?
    General Chilton. USSTRATCOM requires a capability to deliver 
prompt, precise, conventional kinetic effects at intercontinental 
ranges against strategic, high-value targets in denied territory. We 
are focused on maturing technologies to field a system and close the 
capability gap as soon as possible. Prompt global strike capability 
will provide greater flexibility for National leadership and is most 
appropriate when there is a serious threat to national security, and 
time to position today's global strike capabilities is not available, 
such situations could include attacks against our critical national 
space capabilities.
    Ms. Tauscher. What are your views of the relative merits between 
the CTM concept and a possible conventional ICBM?
    General Chilton. CTM was proposed as a near-term hedge PGS solution 
until more flexible or capable systems are developed and fielded. The 
CTM has merit because it can be fielded quickly with demonstrated 
technology and leverages existing SSBN infrastructure. A fully mature 
conventional strike missile concept could provide additional 
flexibility through payload options, extended range and enhanced 
maneuver to engage targets. The conventional strike missile (land based 
approach) concept will not be co-located with existing nuclear weapons 
basing and affords over time the ability to improve capability as new 
technology becomes available.
    Ms. Tauscher. What role did STRATCOM play in the planning for the 
attempted intercept of the non-responsive satellite?
    General Chilton. On behalf of the Department of Defense, USSTRATCOM 
led dual planning efforts: to intercept the failed satellite and to 
conduct global consequence management for the hazardous hydrazine 
propellant, if the intercept had failed. USSTRATCOM integrated the 
efforts and capabilities of multiple geographic combatant commands and 
numerous Federal agencies that were required to achieve mission 
success. Once the decision was taken to conduct the intercept, 
USSTRATCOM coordinated preparations and directed the specific intercept 
based on the approval of the SECDEF.
    Ms. Tauscher. What capabilities are the services, combatant 
commands, and the intelligence community telling you they need from 
future space systems? How do you see STRATCOM facilitating the efforts 
needed to meet these needs? How are these needs and their priorities 
reflected in the FY 2009 DOD budget request?
    General Chilton. Space system requirements are developed in wide 
collaboration between DOD the Intelligence Community (IC) and other 
Federal agencies. These requirements include space situational 
awareness (SSA) and space weather; space protection; uninterrupted 
nuclear C2 and missile warning capabilities, world-wide positioning, 
navigation and timing data; global communications; and Intelligence, 
Surveillance, and Reconnaissance; as well, as the enabling capabilities 
to support those missions, launch ranges, and ground infrastructure.
    We facilitate these efforts through contribution, interaction, and 
participation with Capability Portfolio Managers, our Integrated 
Priority List, Senior Warfighter Forums, the DOD Joint Requirements 
Oversight Council (JROC) and Mission Requirements Board (MRB), 
Integrated Collection Architecture, and the Planning, Programming, 
Budget and Execution process. There is adequate balance across all 
domains given the current total obligation authority.
    Ms. Tauscher. Are current joint space programs with the 
intelligence community adequately supporting warfighter intelligence 
requirements? How would you change the investment strategy to better 
support the warfighter in theater?
    General Chilton. Recent realignment efforts, including the stand-up 
of our Joint Functional Component Command for Intelligence, 
Surveillance, and Reconnaissance and the Defense Intelligence 
Operations Coordination Center resulted in better alignment with the 
Intelligence Community. Developments such as the Broad Area Space-Based 
Imagery Collector provides a tiered, enterprise solution of airborne, 
commercial and national imagery systems that could serve as a model for 
fulfilling other warfighter intelligence requirements.
    Future investments need to address future capability gaps in 
information transport, net-centric data sharing, improved modeling and 
simulation tools, analytical tools, and better automated decision aids. 
Investing in on-going data integration efforts will better support 
warfighter intelligence requirements while providing trade-off 
opportunities in sensors, processors, and analysis. However, there is 
also on going collaboration with the Intelligence Community in several 
areas to develop shared investment strategies to create efficiencies 
for future systems.
    Ms. Tauscher. Please describe the potential operational concepts 
and value that ``operationally responsive'' space (ORS) solutions 
provide to the joint forces. What is your assessment of the ORS program 
office implementation and its responsiveness to warfighter needs?
    General Chilton. ORS solutions may provide the joint force a 
diverse set of space capabilities that address urgent needs for 
warfighting effects. Expected ORS solutions include 1) better/
innovative use of existing, fielded space capabilities (both in-space 
and on-ground), 2) rapid deployment of field-ready capabilities to 
augment current or replenish lost capabilities, and 3) accelerated 
development of new capabilities when required.
    While it is too early to give a full assessment of the ORS Office, 
my initial assessment is that the ORS Office has been effective in 
their first six months of operations and that they are progressing 
toward laying this foundation for the future.
    Ms. Tauscher. How are space assets modeled in warfighter 
operational plans (OPPLANS) and contingency plans (CONPLANS)? How do 
OPPLANS and CONPLANS account for scenarios where our space assets are 
neutralized or attacked?
    General Chilton. Geographic combatant commanders assume current 
space assets will be available during contingency operations 
incorporating these space capabilities in their OPLANS and CONPLANS. 
While a robust modeling of these systems has not reached an ideal level 
of maturity, in the course of plan development, particularly as a part 
of exercises and training, planners assess applicable space assets and 
their necessity for the developed plan. In the case that an exercise 
indicates the loss of space assets, planners develop branch plans to 
account for and mitigate the effects of those losses. As part of risk 
mitigation, planners consider a layered approach of alternate systems 
(both space, air, and terrestrial) with commensurate capabilities to 
support military operational effectiveness.
    Ms. Tauscher. To what degree do current military exercises and 
wargaming incorporate scenarios where our space assets are neutralized 
or attacked and scenarios where redundancies or alternatives are 
exercised?
    General Chilton. Using a blended training and exercise approach, 
STRATCOM utilizes tailored event scenarios which show the exercise 
adversary taking measures to purposefully jam satellites or create 
jamming in exercise operating areas that degrades or denies associated 
capabilities resident on targeted platforms: Additionally, by utilizing 
the blended training and exercise approach, STRATCOM is capable of 
swiftly reacting to emerging threats by building scenarios to train 
Blue Players on an as-needed basis. An example of the training program 
responding to emerging threats occurred during the multiple training 
sessions that provided crewforce training for the recent engagement of 
a re-entering satellite.
    STRATCOM also incorporates degradations to satellites and satellite 
support equipment, as well as disruptions from Space Weather that 
negatively impacts on-orbit assets or negatively impacts the use of 
satellites by Blue Players during an exercise. These types of events 
have been incorporated in the past in the GLOBAL series of exercises 
and will continue to be exercised during the upcoming GLOBAL THUNDER 
2008 and GLOBAL LIGHTNING 2009.
    As far as redundancies or alternatives being exercised, STRATCOM 
has used exercise scenarios that require Blue Players to realize that 
coverage or operational capabilities can be used despite the associated 
system being degraded or denied. Specifically, we train the Blue Player 
to realize that perfect coverage is not always required to have use of 
a particular asset. STRATCOM will continue to use scenarios where 
redundancies or alternatives are exercised during GLOBAL STORM/AUSTERE 
CHALLENGE 2008 and other future exercises.
    Ms. Tauscher. What is our national and military policy if our space 
assets are attacked? Do we have clear ``red lines'' or thresholds for 
attacks against our space assets? What are the merits of a declaratory 
policy that signals our intent and lays out consequences? What are the 
merits of ``rules of the road'' in space?
    General Chilton. The 2006 national space policy declares U.S. space 
capabilities as ``. . .vital to its national interests. Consistent with 
this policy, the United States will: preserve its rights, capabilities, 
and freedom of action in space; dissuade or deter others from either 
impeding those rights or developing capabilities intended to so; take 
those actions necessary to protect its space capabilities; respond to 
interference; and deny, if necessary, adversaries the use of space 
capabilities hostile to U.S. national interests.''
    The unique global nature of space capabilities and the 
ramifications of purposeful interference or destruction require complex 
international considerations. While no ``red lines,'' or thresholds for 
attacks against our space assets exist, our current national space 
policy provides adequate guidance to allow the U.S. appropriate 
responses on a case-by-case basis.
    The U.S. has developed its space capabilities within the context of 
a body of international law referred to as the Outer Space Regime--a 
manifestation of the body of space law comprised of international and 
domestic agreements and precedents. Rooted in the ideals of ``space for 
peaceful purposes'' and ``free access,'' the existing Outer Space 
Regime is sufficient in regulating military activities in outer space, 
without presenting additional constraints, such as a restrictive 
``rules of the road,'' that may limit flexibility to future challenges.
    Ms. Tauscher. The head of Army SMDC has said that within three 
years, China may be able to challenge the U.S. at a ``near-peer level'' 
in space. What are STRATCOM and DOD doing to ensure that the U.S. 
military will maintain its access to space, to defend U.S. interests in 
space, and to engage in mutual threat reduction measures?
    General Chilton. U.S. National Policy for space is based on freedom 
of access for all space faring nations who follow international 
conventions on space. The significant U.S. use of space is founded on 
maintaining access to space and deterring those who would threaten any 
nation's rights to peaceful use of space. If deterrence should fail, 
then we will defend U.S. interests in space. STRATCOM's assessment is 
that no single nation presently or in the near future possesses the 
capability, short of the use of nuclear weapons, to defeat our space 
systems. However, several nations are developing their space 
capabilities, and with significant investments could pose a challenge 
to our freedom of access in the future. In order to maintain our 
assured access, STRATCOM articulates the warfighters' requirements that 
the services and the Intelligence Community (IC) provide.
    STRATCOM is working in close coordination with the Office of the 
Director of National Intelligence (ODNI), across the Intelligence 
Community, and the Services on the integration of the Intelligence 
Collection Architecture (ICA). The ICA is an overarching IC effort to 
tackle ``hard'' intelligence issues. It is jointly led by the ODNI and 
the Under Secretary of Defense for Intelligence. STRATCOM participates 
across the ICA effort, with STRATCOM's Directorate of Capabilities and 
Resource Integration as Command Lead, supported by our Directorate of 
Intelligence. One of seven chartered ICA working groups is the Space 
Survivability Working Group, which is assessing threats to U.S. space 
architectures. They will identify the highest priority investments to 
protect critical intelligence capabilities that can be implemented 
within 10 years, and develop specific programmatic proposals to be 
considered in the FY 2010-15 budget builds for the National 
Intelligence Program and Military Intelligence Program.
    STRATCOM participation in the ICA is linked with a range of ongoing 
STRATCOM activities with other DOD, Joint Staff, IC, and Service 
efforts in the Intelligence, Surveillance, and Reconnaissance arenas, 
including Operationally Responsive Space. These ongoing efforts are 
worked in consonance with the guidance established in the National 
Military Strategy and National Space Strategy.
    Ms. Tauscher. What do you see as the limiting-technologies in 
future conflict scenarios? Are current investment plans addressing this 
need?
    General Chilton. One significant challenge will be to ensure 
information gets to the users in time to be actionable. Information in 
a net-centric environment will make information available to 
participants (people, processes, or systems).
    We will need to be able to transport this information globally 
through space in volumes and speeds meaningful to all warfightes. In 
addition, the ever expanding number and sophistication of objects in 
space is out pacing our capacity and capability to monitor and 
characterize those objects which could pose a threat to our ability to 
use space. We need to continually explore technological opportunities 
to increase our awareness of the operational environment of space and 
our ability to counter any threats. As our dependence on complex 
information systems and applications in the space and cyber domains 
increases, so too does the risk to vulnerabilities inherent in complex 
systems. Additionally; the proliferation of emerging 
telecommunications/information systems technology challenges our 
ability to combat and defend against potential adversary use of that 
technology. We need to continually explore technological opportunities 
to increase our awareness of the operational environment of space and 
cyberspace and our ability to counter any threats. We have aggressively 
worked the FY09 budget with the Services and Agencies emphasizing our 
most critical needs are identified and addressed.
    Ms. Tauscher. Please describe what missile defense capabilities are 
included in this year's Prioritized Capabilities List (PCL). How does 
the budget request reflect the PCL?
    General Chilton. The current PCL covers the entire span of missile 
defense capabilities requested by the warfighter. The Missile Defense 
Agency Summer Study did an alignment of the MDA Program of Record 
against the PCL. The conclusion from the study indicates that while 
there are funding shortfalls to fully meet desired capabilities, MDA 
PB09 reflects expenditures against all 27 PCL capabilities.
    Ms. Tauscher. What is STRATCOM's assessment of the Missile Defense 
Agency's revised Block Structure? Does it reflect the warfighter's 
prioritized capability needs?
    General Chilton. Our assessment is that the revised Block Structure 
allows the Missile Defense Agency to address concerns about 
transparency, accountability, and oversight to better communicate to 
Congress and combatant commands MDA's plans and baselines for its 
continuing improvements in Ballistic Missile Defense System 
capabilities, MDA has given thorough consideration to the warfighters' 
Prioritized Capabilities List. in its development goals and fielding 
priorities. The establishment of the near-term, sea-based terminal 
program in the current FY08 budget is an example.
    Ms. Tauscher. Last year, LTG Kevin Campbell, Commander of the JFCC-
IMD, testified that STRATCOM's analysis (i.e., the Joint Capabilities 
Mix Study) indicated that combatant commanders required twice as many 
THAAD and SM-3 interceptors than are currently planned in order to meet 
current requirements. I understand that STRATCOM has recently completed 
further analysis on this subject in the Joint Capabilities Mix Study 
II. What were the key findings from this study and when will you be in 
a position to brief the Committee on its results?
    General Chilton. The Joint Capabilities Mix (JCM) II study provides 
an initial recommendation for the minimum number of THAAD and SM-3 
interceptors required by 2015. The Joint Integrated Air and Missile 
Defense Organization (JIAMDO) is available to brief the results in a 
closed session upon your request.
    Ms. Tauscher. To what extent will the results of that study be 
taken into account as DOD develops the fiscal year 2010 budget request?
    General Chilton. Joint Staff-led Joint Capabilities Mix Study Part 
II (JCM II) was completed in March 2007 and will be considered by 
Services and MDA as POM 10 is finalized.
    Ms. Tauscher. How would STRATCOM assess missile defense testing 
conducted to date and MDA's test plans? Are they sufficient to give you 
confidence in the operational effectiveness of the Ballistic Missile 
Defense System? If not, what changes would you suggest?
    General Chilton. MDA is on a solid track in the effort to improve 
operational realism of the planned tests. As the advocate for the 
warfighter, we have developed the Operational Readiness & Acceptance 
(OR&A) process that deliberately integrates warfighter test and 
exercise objectives in the BMDS test program. MDA has been receptive 
and responsive to this process. The upcoming flight test of the Ground 
Based Midcourse Defense (GMD) system is a good example of increasing 
operational realism in these venues.
    Missile defense tests are assessed by three organizations: MDA's 
Capability Assessment Team, the joint Service Operational Test Agency, 
and OSD's Director of Operational Test and Evaluation group. These 
organizations provide independent assessments and reports--reports that 
the Warfighter uses, along with its participation in test and 
operations, to conduct their military utility assessment.
    Ms. Tauscher. In testimony before the Senate Armed Services 
Committee last year, your predecessor, General James Cartwright, said 
his priority for missile defense was to focus greater attention and 
resources on the threat from short- and medium-range ballistic 
missiles. Do you share General Cartwright's view that we need to place 
greater priority on countering the threat from shod-and medium-range 
ballistic missiles?
    General Chilton. The results of the JCM II have highlighted the 
need for an increase in our capabilities to counter short and medium 
range missiles, specifically to increase the number of THAAD and SM-3 
interceptors. I support this assessment.
    Our mission at STRATCOM is to advocate for desired missile defense 
capability and characteristics for all Combatant Commands. The 
Geographic Combatant Commanders who have responsibility for countering 
short- and medium-range ballistic missiles within their areas of 
responsibility (AOR) are actively determining the relative priority of 
the capabilities they need to counter threats, facing the U.S. The 
COCOMs then provide STRATCOM the justification necessary for us to 
advocate for new capabilities via the DOD Missile Defense Executive 
Board and the Prioritized Capabilities List. MDA factors COCOM inputs 
into their budget to achieve an effective balance for defense against 
the threat.
    Ms. Tauscher. Where do you believe we should focus our priority 
with regard to missile defense?
    General Chilton. Missile defense (MD) directly supports the new 
Strategic Triad by deterring and dissuading potential adversaries from 
investing in missile technologies; and, when necessary, effectively 
defeating rogue nation ballistic missile threats to the US. The present 
program for missile defense is being extended to corer deployed forces 
and Friends and Allies. Toward that end, we must develop effective 
missile defense capability with following focus:

    <bullet>  Develop a capability to counter the growing Iranian 
missile threats

    <bullet>  Integrate--global missile defense capability that 
integrates with Allies and other capabilities within the Triad

    <bullet>  Inventory--increase the current MD inventory against all 
threat ranges. Investments develop advanced technologies to stay ahead 
of emerging threats

    Ms. Tauscher. The FY 2009 budget request contains $720.0 million 
for a European missile defense site. For a number of reasons, deploying 
long-range interceptors in Europe will raise serious command and 
control challenges. To what extent have STRATCOM and other combatant 
commander begun to plan to operate a European missile defense site?
    General Chilton. USSTRATCOM, in collaboration and coordination with 
the other Combatant Commands, has been working to establish the Global 
Concept of Operations (CONOPS) that would address command and control 
questions to include those associated with the European Capability. We 
have conducted O-6 and General/Flag Officer (GOFO) tabletop discussions 
with the Combatant. Commanders, Services, MDA, and OSD and have 
developed recommended courses of action for the CONOPS. We expect to 
complete our findings this year and seek formal approval.
    Ms. Tauscher. What do you believe are the key command and control 
challenges associated with a European missile defense site?
    General Chilton. We are examining several command and control 
structures with varying degrees of centralization to address the 
globalization of missile warfare. The key, challenge will be to 
integrate the European Capability within the context of the U.S. and 
theater missile defense systems to provide for effective operations 
across the system's functional and geographic boundaries.
    Ms. Tauscher. To what extent has STRATCOM begun to engage the NATO 
Military Authorities on command and control issues associated?
    General Chilton. STRATCOM has begun engagement with NATO on 
identification of Command and Control (C2) issues through information 
exchanges, exercises, and war-games with NATO's Active Layered Theatre 
Ballistic Missile Defense Program Office.
    Ms. Tauscher. MDA is fundamentally a research and development 
organization with responsibility to develop future capabilities, 
However, because the services have generally been reluctant to assume 
responsibility for fielding missile defense capabilities, MDA has taken 
on much of this responsibility. The FY 2008 NDAA an independent study 
to examine MDA roles and missions, which is to be conducted by the 
Institute for Defense Analysis (IDA). What recommendations would you 
make to the study team to ensure that MDA is responsive to the 
warfighter in the future?
    General Chilton. USSTRATCOM participated in the 2007 MDA Summer 
Study that examined means to improve MDA responsiveness. We would 
submit these recommendations from MDA's 2007 Summer Study to IDA. The 
MDA 2007 Study Recommendations:

    <bullet>  Restructure the MDA Systems Engineering Process (SEP) to 
include additional warfighter inputs at key points

    <bullet>  Improve Warfighter Involvement Process (WIP) activity to 
encompass analysis of quantity, operating locations, and deployment 
timing

    <bullet>  Restructure/expand the change request process to permit 
resolution of single element items, fielding, and training requests

    <bullet>  Insert the Achievable Capability List (MDA's response to 
the PCL) and the Capability Assessment Report into the evolved SEP

    Modify tie PCL to convey both a long-term vision of the objective 
BMDS and a more specifically defined capability needs.
    Ms. Tauscher. In 2002, the Unified Command Plan (UCP) assigned 
STRATCOM responsibility for planning, coordinating, and integrating 
global missile defense operations. However, mission execution remains 
the responsibility of each geographic combatant commander in their 
respective area of responsibility (AOR). Do you believe you currently 
have sufficient authority to ``adjudicate'' disputes that could arise 
between combatant commanders during missile defense operations?
    General Chilton. The current UCP does not give CDRUSSTRATCOM the 
authority to adjudicate disputes between combatant commanders during 
the execution of actual missile defense operations. To ensure we are 
prepared to conduct missile defense operations, I have sufficient 
authority to adjudicate disputes between combatant commanders during 
the planning process. During actual missile defense operations, the 
current UCP directs USSTRATCOM to provide warning and assessment of 
missile attack only.
    Ms. Tauscher. How are you using your current authorities, as 
outlined in the UCP, to minimize disputes from occurring?
    General Chilton. JFCC IMD conducts collaborative planning and works 
with the Combatant Commands to (COCOMs) identify areas of disagreement. 
One effective avenue for dispute resolution is the Ballistic Missile 
Defense (BMDS) Management Structure. This structure with 
representatives from the COCOMs, Missile Defense Agency, and other 
partners work to prevent capability issues, and when disputes arise, 
resolve at an early stage. This has been successful to date in 
resolving issues. We continue to conduct wargames and exercises with 
Combatant Commanders to increase knowledge of missile defense 
capabilities and operations. We insert new knowledge and lessons 
learned into current operational procedures and plans.
    Ms. Tauscher. We also understand that STRATCOM is in the process of 
developing a new global missile defense concept-of-operations. Can you 
provide us a general idea of the various options that you're examining?
    General Chilton. We are examining several command and control 
structures with varying degrees of centralization to address the 
globalization of ballistic missile defense. Our courses of action 
consider variations on support and command relationships for locations 
of launch of the ballistic missile, predicted impact and location of 
missile defense resources among others. We have held tabletop war-games 
to explore the issues associated with each option.
    Ms. Tauscher. In 2004, STRATCOM conducted a Military Utility 
Assessment of the initial set of ground-based missile defense (GMD) 
capabilities deployed in California and Alaska to determine their 
militarily effectiveness. How confident are you in current GMD system 
capabilities?
    General Chilton. We assess that the BMDS can defend the homeland 
against a limited North Korean ballistic missile attack.
    Ms. Tauscher. Are there areas where you believe improvements need 
to be made?
    General Chilton. The military utility assessment process is 
continuously maturing the product. The increased number of completed 
tests, with a commensurate increase in operational realism, has 
increased our ability to understand and assess the system's performance 
and military utility. Continued emphasis on validating our models and 
simulations will enhance our confidence in test results. Additionally, 
the warfighter-developed Operational Readiness & Acceptance (OR&A) 
process has improved the integration of warfighter test and exercise 
objectives in the BMDS test program.
    Ms. Tauscher. Do you have any plans to conduct another Military 
Utility Assessment of the GMD system in the near future?
    General Chilton. The Military Utility Assessment (MUA) of the GMD 
is an iterative on-going process. The 2008 MUA is currently in 
development.
    Ms. Tauscher. The House-approved FY 2008 defense authorization bill 
contains a provision establishing a strategic commission to evaluate 
U.S. strategic posture for the future, including the role that nuclear 
weapons should play in the national security strategy. What key 
questions should the commission consider?
    Mr. D'Agostino. In addition to the seven specific questions 
identified in the legislation, other key questions the commission 
should consider include:

    <bullet>  What are the allied perceptions of U.S. stockpile 
reductions? To what degree could substantial reductions call into 
question the viability of the U.S. extended deterrent to the point 
allies may decide to develop then own nuclear forces as a result?

    <bullet>  What is the status of foreign nuclear weapons 
capabilities and the possible threat to U.S. national security threat 
this may pose?

    <bullet>  What are the specific nonproliferation impacts, if any, 
of modest reductions of U.S. nuclear forces and the nuclear stockpile?

    <bullet>  What are the long-term national security consequences of 
maintaining an aging nuclear stockpile absent underground nuclear 
testing?

    Ms. Tauscher. Do you see any risks to the U.S. moving lower than 
the Moscow Treaty's specified range of 1700 to 2200 operationally 
deployed warheads? In your estimation, what is the proper range for 
operationally deployed warheads to aim for by the end of the next 
decade (2020)?
    Mr. D'Agostino. The Department of Energy provides the Department of 
Defense with the number of weapons required to meet national security 
requirements. We remain committed to maintaining the smallest number of 
nuclear weapons consistent with our national security requirements. The 
Department of Defense established security requirements for the size 
and composition of the nuclear stockpile and operationally deployed 
forces.
    Ms. Tauscher. Would a decrease in operationally deployed warheads 
to range of 1,000 to 1,200 substantially change the investment required 
to maintain our nuclear arsenal?
    Mr. D'Agostino. Yes. The degree of potential costs could vary 
greatly. The answer to this question is highly dependent on the types 
of warheads in the stockpile (i.e., which Cold-war, legacy weapons 
versus refurbished modern replacement warheads) and the degree to which 
the nation commits to a responsive infrastructure to support a larger 
nuclear weapons stockpile with multiple types and spares, or fewer 
types and a build-as-needed capability.
    The President has provided a vision for the future that is focused 
on achieving the smallest stockpile consistent with our national 
security needs. Consistent with this vision the NNSA in conjunction 
with the Department of Defense (DOD) are working to achieve a level of 
1,700 to 2,200 operationally deployed strategic nuclear weapons (ODSNW) 
by 2012. In addition to these ODSNW weapons, there is an additional 
quantity of weapons that are kept by DOD for augmentation. Without a 
Congressionally-supported stockpile transformation plan, the United 
States will continue to manage technical risks associated with an aging 
stockpile of legacy nuclear weapons, and the geopolitical uncertainties 
of the years ahead, by maintaining the large inventory of reserve 
weapons to backup the ODSNW quantity. Cost savings for a force of 1,000 
to 1,200 ODSNW would be dependent on the ability to reduce the total 
size of the stockpile, including the large inventory of reserve weapons 
that are kept for augmentation purposes.
    Achievement of a modern, responsive infrastructure and production 
of RRWs are two means of achieving additional reductions in the total 
stockpile size that could lead to cost savings. The RRW designs will 
provide more favorable reliability and performance margins than the 
current stockpile of legacy nuclear warheads. Additionally, RRWs will 
make nuclear weapons safer and more secure against unauthorized use by 
incorporating state-of-the-art security that cannot be retro-fitted 
into the older legacy nuclear weapons. This position has beers clearly 
articulated by the Secretaries of Defense, Energy and State in their 
joint statement titled ``National Security and Nuclear Weapons: 
Maintaining Deterrence in the 21st Century'', dated July 2007.
    Ms. Tauscher. What risks do you see, if any, in pursuing an ``LEP 
only'' strategy, as opposed to proceeding with the reliable replacement 
warhead?
    Mr. D'Agostino. There are risks associated with use control, 
safety, reliability, and the ability to certify without nuclear 
testing.
    One very important area of risk in the pursuit of only an LEP 
approach is the limitation on options that are available for including 
enhanced surety features. For example, limitations exist for modifying 
legacy systems to include new use control features, changing 
conventional high explosive (HE) primaries to use insensitive HE, and 
adding fire resistance to help prevent spread of plutonium in accident 
environments. All of these options exist with higher margin RRW designs 
that are not constrained by optimized weight and volume trades that 
resulted in today's low-margin legacy weapon designs.
    A second primary area of risk with pursuing only an LEP approach is 
associated with being able to reconstruct obsolete processes and/or 
materials for low margin legacy warheads that no longer exist in the 
production complex. Re-certification of legacy warheads undergoing an 
LEP will be complicated if materials in some designs cannot be 
manufactured, or if processes for original materials cannot be 
resurrected, such as the current difficulty being experienced on a 
material for the W76-1 LEP. This situation could require replacement of 
parts with new materials that were not in the original, tested design. 
Any variances from the original design would have to be carefully 
evaluated using the tools of stockpile stewardship. Without the ability 
to test the weapons to validate the results of simulations, greater 
uncertainty will result. Consequently, NNSA may not be able to certify 
that the weapon meets the high-reliability currently required by 
nuclear systems.
    Last, each successive LEP on a weapon type or design change in a 
single LEP introduces uncertainties and risk either associated with 
slight changes in features or in manufacturing process changes that 
cannot be avoided. What is not known is how sensitive the final 
performance of the warhead will be to these cumulative changes. Since 
the legacy warhead designs are fixed and complex, the designer does not 
have much latitude to increase margin and must accept these unknown 
uncertainties. Through multiple LEPs of the same warhead these 
uncertainties will increase and the confidence in the design is 
expected to diminish. For these reasons, the need for nuclear testing 
to validate warhead design variances introduced during LEPs cannot be 
completely ruled out.
    Ms. Tauscher. How do decisions on future delivery systems (e.g., 
ICBM, bomber modernization) impact RRW capabilities and timelines? 
Conversely, how do RRW decisions influence development of future 
delivery systems?
    Mr. D'Agostino. RRW is intended as a replacement for weapons 
currently in the stockpile. In its inception, RRW-1 was intended to be 
a replacement for a portion of the warheads deployed on the Trident 
SLBM. Similarly, should the RRW concept be eventually approved and 
advanced, an RRW variant could be an option for a B61 gravity bomb 
replacement.
    Implications for future delivery systems are best addressed by the 
Department of Defense. That said, while either RRW options or existing 
warheads could provide viable candidates, RRW systems could offer 
advantages in concert with long-term reliability and enhanced safety 
and security.
    Ms. Tauscher. The House-approved FY 2008 defense authorization bill 
contains a provision establishing a strategic commission to evaluate 
U.S. strategic posture for the future, including the role that nuclear 
weapons should play in the national security strategy: What key 
questions should the commission consider?
    Secretary Vickers. There are four major questions that are likely 
to form the basis of our own posture review, and obtaining the 
commission's perspective on these framing questions would be useful. 
The four questions are:

    1) What is the current and likely future security environment?

    2) What policies are required to meet our security goals in those 
environments?

    3) What nuclear forces are required to carry out these policies?

    4)  What infrastructure is required to develop and sustain these 
nuclear forces?

    Ms. Tauscher. What has changed in our security environment since 
the last Nuclear Posture Review (NPR) that should be emphasized in the 
strategic commission?
    Secretary Vickers. The efforts of states of concern and non-state 
actors to obtain WMD and the means to deliver them have intensified 
since the last NPR. The discovery of the wide-reaching proliferation 
network run by A.Q. Khan is especially troubling. North Korea's nuclear 
test of October 2006 and declared acquisition. of nuclear weapons raise 
the prospects that North Korea will have a number of nuclear weapons 
and the means to deliver them. The ongoing modernization of Russian and 
Chinese strategic forces is also a matter of concern that will have to 
be carefully monitored.
    Ms. Tauscher. What do you believe are the security threats with the 
greatest implications for our strategic posture, policies, and 
capability investments?
    Secretary Vickers. As the President has stated, the proliferation 
of nuclear weapons poses the greatest threat to our national security. 
Nuclear weapons are unique in their capability to inflict instant loss 
of life on a massive scale. For this reason, nuclear weapons hold 
special appeal to rogue states and terrorists. The efforts of states of 
concern and non-state actors to obtain nuclear weapons and other forms 
of WMD, as well as the means to deliver them, have intensified since 
the last NPR. The discovery of the wide-reaching proliferation network 
run by A.Q. Khan is especially troubling. North Korea's nuclear test of 
October 2006 and declared acquisition of nuclear weapons raise the 
prospects that North Korea will have a number of nuclear weapons and 
the means to deliver them. North Korea and Iran are also of particular 
concern because of the demonstrated willingness of each to transfer 
sensitive weapons technology to others, their efforts to develop 
ballistic missiles of ever greater ranges, and their willingness to 
sponsor groups that engage in terrorism. The ongoing modernization of 
Russia's and China's strategic forces must also be taken into account 
when developing our own strategic posture, policies, and capability 
investments.
    Ms. Tauscher. What role would RRW play in the nation's overall 
strategic deterrence objectives, particularly given investments in a 
conventional PGS capability?
    Secretary Vickers. To meet the needs of a more complex security 
environment, the 2001 Nuclear Posture Review envisioned a more flexible 
New Triad that consists of strike systems, nuclear, non-nuclear, and 
non-kinetic; defenses, both active and passive; and a responsive 
infrastructure, supported by robust planning, intelligence and command 
and control capabilities. The United States has made great strides in 
developing and deploying both very advanced conventional weapon systems 
and missile defenses.
    Over tune, the development and deployment of these systems may 
further reduce U.S. reliance on nuclear weapons for selected 
deterrence-related objectives and some strategic targets. However, for 
the foreseeable future, advanced conventional weapons and missile 
defenses will not decrease the need for nuclear capabilities. Both 
advanced conventional weapons and missile defenses can enhance 
deterrence, but the ability to deter rests ultimately and fundamentally 
on the availability and continued effectiveness of U.S. nuclear forces. 
The United States will need to maintain a nuclear force, though smaller 
and less prominent than in the past, for the foreseeable future.
    Our long-term goal is to rely more on a revived nuclear weapons 
infrastructure and less on reserve warheads in the stockpile to respond 
to unforeseen events. However, until we are confident that we have the 
capability to respond to unexpected developments by producing nuclear 
weapon components in sufficient quantities, we will need to retain more 
reserve warheads than otherwise would be desired to hedge against 
technical problems or adverse geopolitical changes.
    The Reliable Replacement Warhead (RRW) will be key to sustaining 
confidence in the U.S. nuclear stockpile. Moreover, once the RRW is 
deployed in significant numbers as replacements for low-margin-of-error 
legacy warheads, some or all of the reserve warheads retained in the 
stockpile for reliability purposes can be retired and dismantled 
without incurring significant risk.
    Many questions regarding the future nuclear stockpile and nuclear 
force cannot be answered with precision today. The answers will depend 
on knowledge gained by further work on programs such as RRW, by efforts 
to modernize the nuclear warhead infrastructure, and by closely 
watching emerging trends around the world. Completion of the RRW Phase 
2A Design Definition and Cost Study will provide cost estimates to 
develop, produce, and deploy replacement warheads. This will form the 
basis of a decision whether or not to seek Congressional authorization 
and funding to begin RRW engineering development and to refine future 
plans.
    Ms. Tauscher. In testimony before the Senate Armed Services 
Committee last year, your predecessor, General James Cartwright, said 
his priority for missile defense was to focus greater attention and 
resources on the threat from short-and medium-range ballistic missiles. 
Do you share General Cartwright's view that we need to place greater 
priority on countering the threat from short-and medium-range ballistic 
missiles?
    Secretary Vickers. The most prominent threat we face today comes 
from rogue nations with large arsenals of short- and medium-range 
ballistic missiles. These nations view their arsenals as a means to 
coerce and intimidate their neighbors, and deny freedom of action to 
western coalition forces. With regard to short- and medium-range 
missiles that threaten our friends and allies, we must continue to 
strengthen our defenses against these threats.
    While building capabilities against short- and medium-range 
ballistic missiles should be a near-term priority, we cannot afford to 
ignore the growing long-range threat from rogue nations. Both North 
Korea and Iran are working to develop longer-range ballistic missiles 
as well as space launch capabilities, which are adaptable for use as 
inter-continental ballistic missiles. We know that North Korea is a 
leading proliferator of ballistic missile technology, and Iran is one 
of its main customers. We must continue to develop capabilities to 
counter these threats, and to improve them over time to ensure we stay 
ahead of the threat.
    Ms. Tauscher. Has the concept of strategic deterrence changed since 
the end of the Cold War? If so, how?
    Secretary Vickers. Strategic deterrence is as valuable today as it 
was at the dawn of the atomic age over 50 years ago. However, the 
United States' approach to strategic deterrence has changed to meet the 
unique challenges of the 21st Century.
    During the Cold War, our greatest security concern was the Soviet 
Union. Potential threats from China and regional states such as North 
Korea were considered lesser-included cases that could be addressed by 
the same capabilities deployed to counter the Soviet Union. Today, the 
global security environment is radically different. The primary 
national security challenges now facing the United States is the nexus 
of violent extremists and regional states of concern that possess or 
seek to attain weapons of mass destruction (WMD). However, China's 
modernization and expansion of its nuclear force is also a concern. In 
addition, Russia's modernization of its large nuclear force, including 
the world's largest non-strategic nuclear arsenal, and its robust 
infrastructure, remains a security concern. Despite these dangerous 
challenges, the United States has reduced its strategic nuclear weapons 
stockpile by 80% since the height of the Cold War, and its non-
strategic stockpile by over 90% since 1991.
    Although not suited for every 21st Century challenge, nuclear 
weapons remain an essential element in modern strategy. Nuclear forces 
continue to represent the ultimate deterrent capability that supports 
U.S. national security. Extended deterrence is key to U.S. alliances, 
both in NATO and, in Asia, assuring allies and friends of the 
credibility of U.S. security commitments. U.S. nuclear weapons deter 
potential adversaries from the threat or use of weapons of mass 
destruction against the United States, its deployed forces and its 
allies and friends. In the absence of this ``nuclear umbrella'' some 
non-nuclear allies might perceive a need to develop arid deploy their 
own nuclear capability.
    Ms. Tauscher. What should the U.S. nuclear strategy be if 
deterrence is an outdated approach? What implications does this have 
for the size and composition of the future U.S. nuclear force?
    Secretary Vickers. Deterrence is as important today as it was 50 
years ago. U.S. nuclear forces continue to be the ultimate deterrent to 
adversaries who would use WMD against the United States, its forces, 
allies, or friends. Furthermore, through extended deterrence, the U.S. 
assures allies and friends of the credibility of U.S. security 
commitments and obviates the need for them to develop their own nuclear 
capability.
    Force sizing methodology during the Cold War was based primarily on 
a strategic conflict with the Soviet Union: Today, however; force 
sizing is based on the abilities of the operationally deployed forces, 
the force structure, and the nuclear weapons infrastructure to meet the 
spectrum of political and military goals. This includes present and 
unforeseen technical or geopolitical developments.
    The United States has adapted its nuclear force size and 
composition to meet modern security challenges. The United States has 
reduced its strategic nuclear weapons stockpile by 80% since the height 
of the Cold War, and its non-strategic stockpile by over 90% since 
1991. In addition, we have significantly reduced our nuclear forces by 
taking four ballistic missile submarines out of strategic service, 
retiring all Peacekeeper ICBMs, removing 50 Minuteman III ICBMs from 
alert, converting the B-1 bomber fleet to a purely conventional force, 
and taking the Advanced Cruise Missile out of service.
    Force sizing is also guided by the challenges facing the nuclear 
weapons infrastructure. The infrastructure has atrophied and U.S. 
nuclear weapons. are maintained well beyond their design life. The 
United States, in fact, is now the only nuclear weapons state that does 
not have the capability to produce a new nuclear warhead. The United 
States must hedge its nuclear force size and composition to address 
these technical and geopolitical realities.
    Ms. Tauscher. What roles do STRATCOM, OSD Policy, and NNSA have in 
the National Cyber Initiative? What do you see as the key issues in the 
cyber arena?
    Secretary Vickers. As the Nation becomes more networked, new 
partnerships will develop as a result of the common need for security 
across the Nation. The Comprehensive National Cybersecurity Initiative 
(CNCI) recognizes these dependencies and assigns order and purpose to 
the stakeholders and their particular areas of responsibility. 
USSTRATCOM's mission is to direct network operations and defense, while 
deterring adversaries. OSD Policy defines and has broad oversight of 
Departmental roles and responsibilities as well as interdependencies as 
prescribed by law. NSA, true to the national cyber security strategy 
and Presidential order, is not only the national manager for National 
Security Systems, but also assesses cyber threats from abroad.
    Cybersecurity is of critical importance because of the tremendous 
capabilities and potential vulnerabilities afforded by the nation's 
reliance on information and the information technology infrastructure. 
It is critical that we address not only DOD cyber threats, but the 
threats that loom over the nation as a whole. The National Strategy to 
Secure Cyberspace is a document of elemental importance in the security 
of this country, and the cyber initiative recognizes that DOD agencies 
and federal departments play a separate but complementary role. The 
Cyber Initiative codifies these relationships and empowers us to work 
jointly to safeguard the country's ``nervous system.'' We fully 
recognize that we must deal with this problem not just in the DOD, but 
broadly across the entire range of the Federal sector. Because we are 
embarking on a relatively new effort--one to protect an ephemeral but 
indispensable national asset--the CNCI is a major step in an ongoing 
iterative effort. As DOD and other federal sectors improve their 
collective security postures, we will gain a heightened understanding 
of the threats, the degree to which our efforts are mitigating those 
threats, and the enhancements we must make to instill integrity and 
resiliency into national cyberspace.
    Ms. Tauscher. Do you see any risks to the U.S. moving lower than 
the Moscow Treaty's specified range of 1,700 to 2,200 operationally 
deployed warheads? In your estimation, what is the proper range for 
operationally deployed warheads to aim for by the end of the next 
decade (2020)?
    Secretary Vickers. Any consideration of moving to lower levels than 
currently envisioned in the Moscow Treaty must carefully take into 
account the need to retain the ability to respond to technological, 
operational, and geo-political risks in a timely manner. The 
Administration has not yet identified any lower range for operationally 
deployed warheads in 2020; this may be determined in the upcoming 
Nuclear Posture Review.
    Ms. Tauscher. What role did OSD Policy play in the planning for the 
attempted intercept of the nonresponsive satellite?
    Secretary Vickers. OSD Policy supported the Department's 
coordination and decision-making process, and facilitated the interface 
between the Department, the National Security Council and other U.S. 
Government Departments and Agencies. In this context, OSD Policy 
supported the Secretary of Defense in his capacity as one of the 
President's national security advisors. OSD Policy facilitated legal 
analysis to ensure the engagement was consistent with international 
agreements and legal obligations, supported the development of 
diplomatic and public affairs plans, and supported military and 
diplomatic exchanges with the international community.
    Ms. Tauscher.  What is our military's response posture? For 
example, what would be our response if a military communications 
satellite like Wideband Global System were jammed?
    Secretary Vickers. National space policy states that the United 
States considers space capabilities vital to its national interests and 
views purposeful interference with its space systems as an infringement 
on its rights. Consistent with this policy, the United States will take 
those actions necessary to protect its space capabilities, respond to 
interference, and if necessary, deny adversaries the use of space 
capabilities hostile to U.S. national interests.
    When interference with a satellite system is detected, the first 
step is to properly characterize and attribute the interference event. 
If the interference is determined to be purposeful and the source of 
the interference can be attributed, a broad range of options will be 
considered to mitigate or eliminate the interference threat depending 
on the level of hostilities and the source of the interference. During 
peacetime, diplomatic and/or regulatory measures will normally be used 
initially to attempt to eliminate the interference. During hostilities, 
a broader range of options to include military response will be 
considered.
    The Department of Defense continues to work with its interagency 
partners to improve the U.S. Government's ability to respond rapidly to 
purposeful interference events. The key is to continue to improve our 
space situational awareness capabilities. Space situational awareness 
provides indications and warning of hostile activities, enables real 
time assessment and attribution of purposeful interference, and is 
fundamental to our ability to respond to purposeful interference and 
protect our vital space interests.
    Ms. Tauscher. Please provide an update on the status of missile 
defense negotiations with Poland and the Czech Republic. When are we 
likely to have signed and ratified agreements from Poland and the Czech 
Republic?
    Secretary Vickers. We have now had six rounds of negotiations with 
Poland on an agreement to base a groundbased missile defense 
interceptor site in Polish territory. These sessions have been 
productive and we have made a great deal of progress on a draft text. 
Only a few major issues remain.
    Poland's position is that U.S. assistance in modernizing Polish 
armed forces is an important component of agreeing to base the 
interceptors on its soil. Secretary Rice and Polish Foreign Minister 
Sikorski agreed in February that BMD negotiations and security 
assistance talks would proceed on a ``separate but parallel'' basis. 
Since then, we have held separate talks on both the MD basing agreement 
and security assistance. The United States is committed to working with 
Poland to analyze priorities for the Polish military and determine the 
best way to improve Poland's capabilities as a NATO ally. As we make 
progress, in this area, we are confident we will also make further 
progress on the BMD agreement. We hope to have the BMD agreement signed 
and ratified in the next few months.
    In parallel, we have also had six rounds of separate negotiations 
with the Czech Republic on an agreement to base a missile defense 
tracking radar in Czech territory. These talks have made even greater 
progress and we are in the process of resolving a small number of 
drafting issues that will allow us to finalize the draft agreement 
text. We are hopeful that we will have a signed agreement in the coming 
weeks, at which point it will likely be submitted to the Czech 
parliament for ratification. The Czechs themselves are unsure how long 
the ratification process may take.
    Ms. Tauscher. On February 1, 2008, the Polish Foreign Minister 
stated that the United States had agreed in principle to provide Poland 
additional ``security guarantees'' in exchange for hosting the proposed 
interceptor site. What types of additional security guarantees is the 
United States considering providing to Poland?
    Secretary Vickers. Poland's position is that U.S. assistance in 
modernizing Polish armed forces, especially air defenses, is an 
important component of agreeing to base the interceptors on its soil. 
Polish government officials tell us that this aspect is critical 
because they must be able to make the case to the Polish public that 
hosting U.S. missile defense assets increases Poland's security. They 
have asked for military assistance and an additional bilateral security 
arrangement with the United States.
    The U.S. position is that NATO Article V is the cornerstone of our 
security relationship and that there is no stronger guarantee, as the 
United States takes its Article V obligations very seriously. Therefore 
we are not considering additional security guarantees for Poland. 
However, the United States has committed to assisting Poland with the 
modernization of its armed forces. We are working with Poland to 
analyze priorities for the Polish military and determine the best way 
to improve Poland's capabilities as a NATO ally. This process will take 
a number of months, and should result in a plan for effective and 
economical means to help Poland modernize its forces.
    Secretary Rice and Polish Foreign Minister Sikorski agreed in 
February that BMD negotiations and security assistance talks would 
proceed on a ``separate but parallel'' basis. Since then, we have held 
separate talks on both the missile defense basing agreement and 
security assistance.
    Ms. Tauscher. Please provide an update on discussions with NATO. To 
what extent has NATO increased its focus and investment in territorial 
missile defense? To what extent has STRATCOM engaged with NATO on 
command and control (C2) issues and integration of C2 systems?
    Secretary Vickers. At the 2007 NATO Defense Ministerial, the 
Alliance tasked further work in analyzing the political and military 
implications of territorial missile defense. Specifically, the Alliance 
directed that the U.S. proposal to place long-range missile defense 
assets in Europe be taken into account as part of the analysis. We are 
confident that the April 2008 NATO Summit in Bucharest will result in 
further positive developments along these lines.
    Selected NATO member states are making investments in missile 
defense that could be useful for territorial defense. NATO members have 
invested over =700 million in the Active Layered Theater Ballistic 
Missile Defense (ALTBMD) program. Together with their investments in 
PATRIOT systems, ALTBMD could provide point defense for European 
critical infrastructure and population centers. Italy and Germany are 
co-developing with the U.S. the Medium Extended Air Defense missile 
defense system. Other NATO allies have shown interest in equipping 
their surface combatants with Aegis Standard Missile-3 sea-based 
interceptors: These capabilities could provide our NATO allies with 
territorial defense capabilities, as well as deployable forces for out-
of-area coalition warfare.
    STRATCOM, via its Joint Force Component Commander for Integrated 
Missile Defense, has conducted a series of multi-lateral ballistic 
missile defense exercises to explore coalition missile defense 
operations. Joint Project Optic Windmill/Alliance is one such exercise 
and is part of a collection of Global Integrated Missile Defense 
training events. These exercise events explore the U.S. Ballistic 
Missile Defense System (BMDS) with NATO playing a major role. In the 
exercises, NATO introduces elements of the future Active Layered 
Theatre Missile Defense (ALTBMD), and NATO C2 systems, together with 
the national Theatre Ballistic Missile Defense contributions to the 
Alliance, using both NATO's Combined Joint Task Force (CJTF) and 
Response Force (NRF) concepts. These types of events offer a unique 
environment to explore future capabilities, evaluate command and 
control options, and refine tactics, techniques and procedures.
    Ms. Tauscher. What would be the key command and control challenges 
associated with a European missile defense site? To what extent have 
STRATCOM and other combatant commanders begun to plan to operate a 
European missile defense site?
    Secretary Vickers. Some of the key challenges for command and 
control of the European missile defense sites include establishing 
supported and supporting relationships, weapons release authority, and 
developing processes for planning, integrating and coordinating 
combined missile defense operations. These challenges are a natural 
part of the evolution of missile defenses. The Unified Command Plan 
tasks USSTRATCOM with leading a collaborative planning process that 
includes providing global ballistic missile defense solutions. 
STRATCOM, via its Joint Force Component Commander for Integrated 
Missile Defense, is already leading an effort to gain Combatant 
Commander agreement on a series of basic principles to support a global 
ballistic missile defense concept of operations that will include 
European missile defense capabilities. The basic principles will be 
agreed to in 2008 and will be used to develop and finalize the concept 
of operations.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. EVERETT

    Mr. Everett. Am I correct in saying on the new AEHF that the 
terminals are not synchronized with it, or do you know?
    General Chilton. Regrettably, AEHF terminal synchronization remains 
a challenge. Only about 80 Secure Mobile Anti jam Reliable Tactical 
Terminals (SMART-T) will be available when AEHF is ready for operations 
in FY10. Strategic terminals will not be fielded in sufficient 
quantities to transition networks from Low Data Rate MILSTAR capability 
to Extended Data Rate AEHF capability until approximately 2015.
    To ensure the Services address this issue, USSTRATCOM emphasized 
terminal synchronization within our #1 Integrated Priority List item 
for Fiscal Years 2010-2015. We are also working with the Network 
Centric Capabilities Portfolio Manager to include terminal 
synchronization language in the Joint Programming Guidance. We are also 
closely monitoring terminal and space programs to leverage programmatic 
efficiencies that improve synchronization efforts.
    Mr. Everett. Please provide STRATCOM's recommendation on the 
revised High Altitude Transition plan and U-2 retirement plan, year-by-
year, based on STRATCOM's Intelligence, Surveillance and Reconnaissance 
(ISR) gaps analysis.
    General Chilton. STRATCOM is currently conducting its assessment of 
the revised High Altitude Transition (HAT) plan through the Defense 
Department and analyzing courses of action necessary to maintain 
airborne ISR capability for the warfighter. Our 2008 assessment updates 
a similar study completed by STRATCOM in 2006 and will address specific 
combatant command concerns associated with the transition. My intent is 
to identify DOD operational risk and potential mitigation options 
through the end of Fiscal Year 2012. The findings will be presented to 
the Joint Requirements Oversight Council in April 2008. STRATCOM 
continues to support active management and assessment of the HAT plan 
to deliver capabilities while limiting DOD risk associated with U-2 
divestiture.
    Mr. Everett. The U-2 Optical Bar Camera (OBC) provides a broad area 
search capability to support treaty monitoring and COCOM requirements. 
With no plans to migrate the OBC over to Global Hawk, how will the 
COCOM requirement for a broad area search capability be satisfied?
    General Chilton. USSTRATCOM and regional combatant commanders 
recognize the operational value the U-2's OBC capability provides. 
However, there is also an understanding of the value in transitioning 
to the next generation of digitized, broad-area, space and airborne 
imaging capabilities, requiring fewer processing resources, but with 
faster product delivery. STRATCOM will continue to examine Global Hawk 
and enterprise-wide capabilities to ensure Combatant Commander ISR 
requirements are satisfied. The requirement for releasable, broadarea 
imaging capabilities is part of a STRATCOM led assessment of the Air 
Force's High Altitude Transition (HAT) plan scheduled for completion in 
April 2008. The divestiture of the U-2 aircraft will continue to be 
actively managed to ensure that all critical requirements are met 
throughout the transition to the Global Hawk.
    Mr. Everett. Who are the planned users of TSAT and what impact does 
the $4 billion reduction to TSAT across the Future Years Defense Plan 
(FYDP) have on these users?
    General Chilton. TSAT is expected to support a variety of strategic 
and tactical users, ranging from the President down to the individual 
small combat unit. Users include command centers servicing all 
Combatant Commands/Services/Agencies; Army, Marine, Navy, and Air Force 
units and platforms; various unmanned aerial systems; and special 
operations forces.
    The $4 billion reduction extends reliance on lower capacity, non-
network centric, and unprotected legacy systems; potentially creates an 
unintended gap in survivable and protected communications for nuclear 
command and control in the 2020 timeframe; delays the exponential 
increase in wideband capacity that our geographic combatant commanders 
are demanding for transporting intelligence, surveillance, and 
reconnaissance data; and postpones delivery of antijam, low probability 
of intercept, and networked communications-on-the-move capabilities for 
our deployed warfighters.
    We are currently working with OSD and all of our mission partners 
to determine the appropriate investment strategy for military SATCOM. 
We are analyzing the contributions from the entire wideband and 
protected satellite communications portfolio to determine the 
architecture that best meets the warfighter's future SATCOM 
requirements.
    Mr. Everett. What is your assessment of the synchronization between 
the launch of military SATCOM systems and the fielding of compatible 
user terminals? How are you ensuring that user terminals are fielded to 
keep pace with new capabilities introduced on WGS(already on-orbit), 
AEHF (I QFY09), and the Navy's MUOS (FYI 10)?
    General Chilton. Terminal synchronization has been a USSTRATCOM 
priority for the past several years. While the Services have made some 
progress on aligning terminal fielding schedules with satellite 
launches, synchronization remains a challenge. Terminals currently lag 
satellite deployment by 2-5 years, essentially expending up to a third 
of the satellite's lifetime while the user population waits for 
terminals to be fielded:
    To ensure the Services address this issue, USSTRATCOM emphasized 
terminal synchronization within our #1 Integrated Priority List item 
for Fiscal Years 2010-2015. We are also working with the Network 
Centric Capabilities Portfolio Manager to include terminal 
synchronization language in Joint Programming Guidance. We are also 
closely monitoring terminal and space programs to leverage programmatic 
efficiencies that improve synchronization efforts.
    Mr. Everett. What roles do STRATCOM, OSD Policy, and NNSA have in 
the National Cyber Initiative? What do you see as the key issues in the 
cyber arena?
    General Chilton. USSTRATCOM is the lead Combatant Command for 
Cyberspace supporting DOD's National Cyber Initiative tasks including 
operation and defense of the Global Information Grid, development of 
capabilities to increase the security of our networks; and 
collaboration with USG agencies and others to bolster cyber security.
    Key issues in the cyber area are situational awareness, 
attribution, supply chain vulnerabilities and the development of a 
professional work force.
    Mr. Everett. Can you provide a description of the military 
requirements for conventional Prompt Global Strike (PGS) and STRATCOM's 
strategy for satisfying those requirements?
    General Chilton. STRATCOM requires a capability to deliver prompt, 
precise, conventional kinetic effects at intercontinental ranges 
against strategic, high-value targets in denied territory. The 
Department's strategy includes: 1) focus current PGS Defense-wide 
account investments on key PGS enabling technologies, 2) leverage 
existing capabilities and ongoing demonstrations in the areas of 
propulsion and guidance, 3) transition from technology application to 
operationally relevant and realistic flight demonstrations, 4) work 
with the Services to develop operational concepts and deployment plans, 
and 5) align all described efforts towards fielding a capability as 
soon as possible.
    Mr. Everett. What are the leading candidate system solutions for 
fulfilling STRATCOM PGS mission requirements that Congress should 
invest in and why?
    General Chilton. The Department is currently reviewing the initial 
results of the Prompt Global Strike Analysis of Alternatives. This 
joint study lead by the Air Force has provided information on a range 
of solutions that address Prompt Global Strike requirements. The 
analysis confirmed investments are needed in advanced aero vehicles and 
weapons supporting a range of basing concepts. We are, working with USD 
(AT&L) and the Services to focus the defense-wide account to deliver an 
initial capability at the earliest possible opportunity. We are also 
focused on maturing the key technologies necessary to develop and 
deliver an operational capability quickly.
    Mr. Everett. What utility does the Army's Advanced Hypersonic 
Weapons (AHW) Technology Demonstration program provide for PGS?
    General Chilton. The AHW technology demonstration has the potential 
to advance technology in the area of advanced aerobodies, thermal 
protection materials and systems, and guidance, navigation, and 
control. However its objectives must be clearly and better integrated 
with DOD's prompt global strike technology path forward and support 
planned Service demonstrations.
    Mr. Everett. Does STRATCOM have any recommendations for 
consideration by Congress on how best to apportion the $100M set-aside 
in the FY08 defense wide account?
    General Chilton. In accordance, with the National Defense 
Authorization Act for Fiscal Year 2008 STRATCOM has provided USD (AT&L) 
the military requirements for the Prompt Global Strike systems. These 
requirements will be used to inform the obligation and expenditure plan 
currently in coordination with USD (AT&L). The apportionment of the 
$100M should focus on the development of a viable demonstration which 
leads to a fielded capability by no later than 2014.
    Mr. Everett. How much finding to support the conventional PGS 
mission area are you requesting for this next year? How will those 
hinds be apportioned?
    General Chilton. The President's budget request contains $117M for 
continued progress to develop a PGS capability. The funding remains in 
a Defense-wide RDT&E account under the control of USD (AT&L). The 
budget request supports continued investment in critical enabling 
technologies and preparation and execution of PGS demonstrations by 
DARPA and the Services. Our objective is to focus the investment to 
deliver an initial PGS capability at the earliest possible opportunity.
    Mr. Everett. 1(a). What roles do STRATCOM, OSD Policy, and NNSA 
have in the National Cyber Initiative?
    Mr. D'Agostino. 1(a). Currently NNSA does not have an official role 
(a seat at the table) in the National Cyber Initiative, however we are 
working with DOE OCIO (does have a seat at the table) to understand 
which requirements from the initiative are to be implemented by DOE and 
NNSA. I cannot speak for STRATCOM and OSD.
    Mr. Everett. 1(b). What do you see as the key issues in the cyber 
arena?
    Mr. D'Agostino. 1(b). There are a number of issues to be considered 
when evaluating the cyber arena; however, I believe that all of these 
issues can be summed up into four key areas: a) Lack of clear Public 
Policy and implementable standards to include public policy is normally 
ambiguous and many of the industry standards are costly to implement; 
b) Challenge of keeping pace with an ever-changing threat; c) Inability 
to provide a real-time technical collaboration solution when threats 
and vulnerabilities are identified to include the ability to 
collaborate with other sites when an incident occur; and d) education 
of the general workforce, to include our technical experts.
    Mr. Everett. What roles do STRATCOM, OSD Policy, and NNSA have in 
the National Cyber Initiative? What do you see as the key issues in the 
cyber arena?
    Secretary Vickers. As the nation becomes more networked, new 
partnerships will develop as a result of the common need for security 
across the nation. The Comprehensive National Cybersecurity Initiative 
(CNCI) recognizes these dependencies and assigns order and purpose to 
the stakeholders and their particular areas of responsibility. 
USSTRATCOM's mission is to direct and defend computer network 
operations. OSD policy defines broad Departmental roles and 
responsibilities as well as interdependencies as prescribed by law. The 
National Security Agency (NSA), true to the national cyber security 
strategy and Presidential order, is not only the national manager for 
National Security Systems, but also assesses cyber threats from abroad.
    Cybersecurity is of critical importance because of the tremendous 
capabilities and potential vulnerabilities afforded by the nation's 
reliance on information and the information technology infrastructure. 
It is critical that we address not only cyber threats to DOD, but the 
threats that loom over the Federal government as a whole. The National 
Strategy to Secure Cyberspace is a document of elemental importance in 
the security of this country, and the cyber initiative recognizes that 
DOD agencies and federal departments play a separate but complementary 
role. The Cyber Initiative codifies these relationships and empowers us 
to work jointly to safeguard the government's networks. Since we are 
embarking on a relatively new effort--one to protect an evolving but 
indispensable national asset--the CNCI is a major step in an ongoing 
iterative effort. As DOD and other federal sectors improve their 
collective security postures, we will gain a heightened understanding 
of the. threats, the degree to which our efforts are mitigating those 
threats, and the enhancements we must make to instill integrity and 
resiliency into national cyberspace.
    Mr. Everett. Given the Congressional concerns in PGS for the last 2 
years, have the various conventional PGS options been formally assessed 
as being policy and treaty compliant?
    Secretary Vickers. The Secretary of Defense and Secretary of State 
submitted a report to Congress on Conventional Trident Modification 
(CTM) in February 2007 addressing Congressional concerns. The report 
articulated mission types that both the Departments of Defense and 
State believe justify a Prompt Global Strike (PGS) system as a needed 
near-term capability, introduced a comprehensive assurance strategy for 
these long-range, conventionally-armed ballistic missiles, and provided 
the Department of State views on salient international issues 
associated with PGS. We have indicated that CTM, if deployed, would 
remain accountable and compliant with the START Treaty. Other PGS 
capabilities have not progressed sufficiently to be reviewed for 
compliance under START.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. REYES

    Mr. Reyes. The FY 2009 budget request delays delivery of all four 
THAAD fire units by varying degrees. STRATCOM and the other combatant 
commanders have noted that delivery of the THAAD system was one of 
their highest missile defense priorities. Where on STRATCOM's missile 
defense priority list do you currently place THAAD?
    General Chilton. Terminal defense and mobile active defense assets 
remain a high priority and are expressed as such in the current 
Prioritized Capabilities List. Per the Missile Defense Agency funds 
have been allocated to deliver all four THAAD fire units on schedule.
    Mr. Reyes. To what extent did MDA consult with STRATCOM and other 
combatant commanders prior to moving forward with its decision to delay 
the delivery of the THAAD fire units?
    General Chilton. The potential delivery delay of THAAD firing units 
was under consideration by MDA. However, MDA decided to allocate 
additional funds needed to restore fire units (#3 and #4) to maintain 
the original schedule. The MDA Director is readily available for 
consultation when such issues arise.
    Mr. Reyes. What is STRATCOM's requirement for THAAD? What is the 
total requirement for THAAD as requested by all Combatant Commanders?
    General Chilton. STRATCOM, with the other combatant commanders, 
participated in Joint Integrated Air and Missile Defense Organization-
led Joint Capability Mix studies to provide initial recommendations for 
minimum THAAD force structure. This study can be presented to you in 
closed session by the Joint Integrated Air and Missile Defense 
Organization. This information will be combined with the Defense 
Planning Scenario-based Analytical Agenda efforts to further refine 
these requirements.
                                 ______
                                 
                  QUESTION SUBMITTED BY MR. THORNBERRY

    Mr. Thornberry. Mr. D'Agostino, one of the things I would like to 
ask you to do for the record, since we have to go, is can you give us 
the potential disadvantages or concern of Stockpile Stewardship life-
extension program only approach without RRW? I would like those listed 
up to us, you know, one through five or 10 or whatever it is. I think 
that helps us to make the balance.
    Mr. D'Agostino. Under a life-extension approach, current planning 
indicates that over the next 25 years all legacy warheads that remain 
in the stockpile will require extensive life extension programs (LEPs). 
These LEPs would be conducted to refurbish or replace existing nuclear 
and non-nuclear parts with the goal of extending the life of each 
warhead type for another 30 years. That includes nine different warhead 
types and the requirement to survey and maintain spares for each. The 
RRW approach reduces the number of types and enables new safety, 
surety, and security features.
    One very important issue on the pursuit of only an LEP approach is 
the limitation on options that are available for including enhanced 
surety features. For example, limitations exist for modifying legacy 
systems to include new use control features, changing conventional high 
explosive (HE) primaries to use insensitive HE, and adding fire 
resistance to help prevent spread of plutonium in accident 
environments. All of these options exist with higher margin RRW designs 
that are not constrained by optimized weight and volume trades that 
resulted in today's low-margin legacy weapon designs.
    A second primary issue with pursuing only an LEP approach is 
associated with being able to reconstruct obsolete processes and/or 
materials for low margin legacy warheads that no longer exist in the 
production complex. Re-certification of legacy warheads undergoing an 
LEP will be complicated if materials in some designs cannot be 
manufactured, or if processes for original materials cannot be 
resurrected, such as the current difficulty being experienced on a 
material for the W76-1 LEP. This situation could require replacement of 
parts with new materials that were not in the original, tested design. 
Any variances from the original design would have to be carefully 
evaluated using the tools of stockpile stewardship. Without the ability 
to test the weapons to validate the results of simulations, greater 
uncertainty will result. Consequently, NNSA may not be able to certify 
that the weapon meets the high-reliability currently required by 
nuclear systems.
    Last, continued aging and each refurbishment activity on a weapon 
type introduces uncertainties either associated with slight changes in 
features or in manufacturing process changes that cannot be avoided. 
What is not known is how sensitive the final performance of the warhead 
will be to these cumulative changes. Since the legacy warhead designs 
are fixed and complex, the designer does not have much latitude to 
increase margin and must accept these unknown uncertainties. Through 
multiple LEPs of the same warhead or multiple design changes in a 
single LEP these uncertainties will increase and the confidence in the 
design is expected to diminish. Worst case, if there are too many 
deviations from the test base, the uncertainty in the calculations may 
exceed the capability of NNSA to certify weapon reliability using 
simulations alone. For these reasons, the need for nuclear testing to 
validate warhead design variances introduced during LEPs cannot be 
completely ruled out.
    Mr. Thornberry. What are the Department of Defense's roles and 
responsibilities in the Administration's new cyber security initiative? 
How is the Department of Defense organized for this mission? What are 
the legal and or policy obstacles to DOD fulfilling its roles and 
missions? What is the role of private industry since they own most of 
the infrastructure? In your opinion is there a ``chilling effect'' of 
not updating FISA by providing liability protection for businesses, and 
will this impede the DOD progress in this mission area? What 
technologies, processes and procedures are being considered to protect 
the privacy of U.S. citizens? How will you keep up to date with 
technology and technically savvy adversaries? What are the necessary 
work force skills for this initiative to be successful? What are the 
DOD gaps and strengths in this area? What training programs are in 
place or need to be developed?
    Secretary Vickers. DOD is responsible for supporting DHS and DNI in 
the implementation of the Comprehensive National Cybersecurity 
Initiative (CNCI). DOD is also leading, or co-leading, four of the 
twelve initiatives and one of the seven enablers. The Secretary has 
designated USD(P) as the lead coordinator for the Department with 
critical support being provided by ASD-NII, ASDHD&ASA, USD-I, 
Comptroller, and the Joint Staff. Currently, there are no policy issues 
or legal obstacles for DOD support to the CNCI. Work with private 
industry is identified in one of the initiatives, and is led by DHS. 
DOD defers to DNI for any detailed discussion on the topic of FISA 
issues but DOD's position is that the CNCI does not ask 
telecommunication firms to take any action that would expose them to 
legal liability. DOD is sensitive to any perceived privacy issues 
related to the deployment of technologies associated with CNCI. An 
overarching objective of the CNCI into protect Federal information 
systems, to include the protection of U.S. citizens' personal 
information that resides on these systems. The initiative addresses new 
technologies by making significant investments in cyber R&D and leap-
ahead technology research to maintain U.S. technological advantages. 
DOD is recognized as the Federal leader in cyber defense capabilities 
and much of the groundwork that DOD accomplished is being leveraged for 
the Federal community. In order to achieve the cyber protection goals 
of the CNCI and DOD, one potential pitfall is lack of funding. The 
Training and Education initiative of the CNCI is focused on bringing 
together the various Departmental training programs, including college 
scholarship programs, to identify best-of-breed. DOD has a very robust 
training program in cyber security and the CNCI will try to broaden 
this approach across the Federal Government and the nation.
    Mr. Thornberry. Has DOD identified specific programs and budget 
lines that are associated with this initiative? If so, please provide 
with this response. Are there additional program or budget requirements 
that have not been addressed? How will DOD manage this initiative 
within OSD/NSA/Services
    Secretary Vickers. Yes, the Department has established a specific 
program element (PE) code that will capture the Cyber Security finding 
throughout the Department. PE 0305103x is executable in all 
appropriations for the Information System Security Program and Military 
Intelligence Program budgets.
    DOD does not anticipate making additional budget requests under the 
Comprehensive National Cybersecurity Initiative (CNCI) beyond those 
already identified in the President's budget submission.
    DOD is managing the initiative as follows:

    USD(P) is the DOD lead for the CNCI in support of an initiative 
that directs certain policy actions across the Federal government. 
USD(P) is DOD's policy lead and ASD(HD&ASA) is the focal point within 
USD(P).
    ASD(NII)/DOD CIO is the Principal Staff Assistant (PSA) to the 
SecDef with respect to information assurance (IA) (cyber/computer 
network defense (CND)) activities. NII/CIO has played and continues to 
play a central role in helping bring the various DOD Components 
together to coordinate the DOD partnership in the CNCI as well as 
working with the OSD Comptroller and OMB to develop and subsequently 
justify the DOD (non-NIP) portion of the budget request. NII will play 
an oversight role as the Initiative evolves, as we do for other IA 
related activities in the Department to ensure the Components are 
executing according to plans.
    USD(I) owns the MIP aspects of the DOD CNCI budget (either through 
NSA or DIA) which affords them an oversight responsibility as well. 
NII/CIO works very closely with USD(I) in this process.
    Mr. Thornberry. How will you measure success? Does the program 
scale to maintain speed, processing, and bandwidth? What is your return 
on investment--how will you demonstrate value for the costs?
    Secretary Vickers. The Comprehensive National Cybersecurity 
Initiative (CNCI) provides the foundation for a national cybersecurity 
program that will enable the U.S. to fundamentally change the balance 
of power from one that currently favors cyber intruders and attackers 
over our network defenders to one more favorable to the U.S. national 
and economic interests. The Office of Management and Budget (OMB) 
requires measures that describe progress towards achievement of goals 
and efficiency in use of resources to make that progress. To this end, 
the Program Assessment Rating Tool (PART) methodology will be used to 
assess and improve program performance. Key parts of this process 
include the development of meaningful performance measures and the 
tracking of anticipated (or desired) targets over time through a 
structured review process. The Departments and Agencies involved in 
developing this program believe it will provide a much greater degree 
of cybersecurity throughout the Federal government and when fully 
implemented, across the nation. Only through the implementation of a 
comprehensive initiative will the United States realize the full 
benefit of an optimal cybersecurity solution.

                                  <all>

</pre></body></html>
